APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
FEDERAL CIRCUIT
————
2017-2379, 2017-2512
————
PDS CONSULTANTS, INC.,
Plaintiff-Appellee,
v.
UNITED STATES,
WINSTON-SALEM INDUSTRIES FOR THE BLIND,
Defendants-Appellants.
————
Decided: October 17, 2018
————
O’Malley, Circuit Judge.
This case concerns the relationship between two
statutory regimes designed to benefit two historically
disadvantaged groups: veterans and disabled persons.
The United States and Winston-Salem Industries for
the Blind (“Industries for the Blind”) (together, “Appellants”) appeal from a decision of the U.S. Court of
Federal Claims (“Claims Court”) holding that section
502 of the Veterans Benefits, Health Care, and Information Technology Act of 2006, Pub. L. No. 109-461,
120 Stat. 3403, 3431–35 (2006) (“VBA”), requires the
Department of Veterans Affairs (“VA”) to consider
awarding contracts for prescription eyewear based on
competition restricted to veteran-owned small business—
i.e., to undertake a “Rule of Two” analysis—before

2a
procuring such eyewear from any other source, including a nonprofit agency for the blind or significantly
disabled, designated as such under the Javits-WagnerO’Day Act (“JWOD”), 41 U.S.C. § 8504. See PDS
Consultants, Inc. v. United States, 132 Fed.Cl. 117
(2017). For the reasons that follow, we affirm.
I. BACKGROUND
A. Overview
Process

of

the

Federal

Procurement

A bevy of statutes and regulations govern the federal procurement process. As explained below, these
authorities impose a number of restrictions on executive branch agencies seeking to procure goods and
services. At the same time, they permit—or, sometimes, mandate—that preferential treatment be given
to certain contractors, including those that are owned
by or employ veterans or employ blind or otherwise
significantly disabled individuals. This case concerns
the relative priority of those mandates for VA
procurements.
1. The Competition in Contracting Act
In 1984, Congress enacted the modern statutory
framework for federal procurement, the Competition
in Contracting Act of 1984, Pub. L. No. 98-369, div. B,
tit. VII, 98 Stat. 494, 1175, which is codified, as amended,
in various sections of titles 10, 31, and 41 of the United
States Code. The Competition in Contracting Act generally requires that all executive agencies “obtain full
and open competition through the use of competitive
procedures” when procuring goods or services. 41
U.S.C. § 3301(a). An agency uses “competitive procedures” when it permits any responsible source to
compete for a procurement; it also uses “competitive

3a
procedures” when it appropriately restricts competition to “small business concerns.” Id. § 152.
The Competition in Contracting Act expressly exempts
agencies from having to use “competitive procedures”
for procurements where (1) procurement procedures
are “otherwise expressly authorized by statute,” id.
§ 3301(a); or (2) “a statute expressly authorizes or
requires that the procurement be made through another
executive agency or from a specified source,” id.
§ 3304(a)(5). The parties do not dispute that the JWOD
is a statute that expressly requires that certain procurements be made “from a specified source.” They
dispute, however, whether and to what extent the VBA
contains a separate exception from the Competition in
Contracting Act’s “competitive procedures” requirement,
one that applies before resort to the requirements of
the JWOD.
2. The Javits-Wagner-O’Day Act
The JWOD was enacted in 1938 to provide employment opportunities for the blind, and was amended in
1971 to provide such opportunities for “other severely
disabled” individuals. To effectuate these goals, the
JWOD established the Committee for Purchase
from People Who Are Blind or Severely Disabled
(“AbilityOne”), a fifteen-member body appointed by
the President that includes one representative from
the VA. 41 U.S.C. § 8502.
One of AbilityOne’s primary duties is to create and
maintain a procurement list (“List”) that identifies
products and services produced by nonprofit entities
that are operated in the interest of, and employ,
individuals who are blind or significantly disabled. Id.
§ 8503(a). The JWOD generally requires that federal
agencies, which on its face would include but not be

4a
limited to the VA, purchase products and services on
the List from designated nonprofits. Specifically, the
JWOD provides that:
An entity of the Federal Government intending to
procure a product or service on the procurement
list referred to in section 8503 of this title [i.e., the
List] shall procure the product or service from a
qualified nonprofit agency for the blind or a qualified nonprofit agency for other severely disabled
in accordance with regulations of [AbilityOne] and
at the price [AbilityOne] establishes if the product
or service is available within the period required
by the entity.
Id. § 8504(a) (emphasis added). Regulations promulgated under the JWOD mandate that AbilityOne, in
deciding what items to place on the List, consider,
among other things, the additional service or commodity’s potential to generate employment, the nonprofit
agency’s qualifications and capability to meet Government standards and schedules, and the impact on
private contractors. 41 C.F.R. § 51–2.4. AbilityOne can
make changes to the List by posting a notice in the
Federal Register and following the notice and comment
procedures set forth in the Administrative Procedure
Act. 41 U.S.C. § 8503(a)(2).
3. The Small Business Act and Amendments Thereto
The Competition in Contracting Act permits agencies
to restrict competition for some federal contracts. For
example, the Small Business Act (“SBA”) “requires
many federal agencies, including the [VA], to set aside
contracts to be awarded to small businesses,” and specifically requires that each agency set “‘an annual goal
that presents, for that agency, the maximum practicable

5a
opportunity’ for contracting with small businesses,
including those ‘small business concerns owned and
controlled by service-disabled veterans.’” Kingdomware
Techs., Inc. v. United States, ––– U.S. ––––, 136 S.Ct.
1969, 1973, 195 L.Ed.2d 334 (2016) (quoting 15 U.S.C.
§ 644(g)(1)(B)). Federal regulations, such as 48 C.F.R.
§ 19.502-2(b), moreover, “set forth procedures for most
agencies to ‘set aside’ contracts for small businesses.”
Id.
Congress, through the SBA, established a goal for
all agencies to obtain 23% of the value of contracts
from “small business concerns.” 15 U.S.C. § 644(g)(1)(A)
(2012). Congress then expanded small-business opportunities for veterans by passing section 502 of the
Veterans Entrepreneurship and Small Business Development Act of 1999, Pub. L. No. 106-50, 113 Stat. 233,
which amended the SBA and established a governmentwide contracting goal for agencies to obtain at least 3%
of the value of contracts from service-disabled veteranowned small businesses. Id.
Congress further amended the SBA by passing the
Veterans Benefits Act of 2003, Pub. L. No. 108-183,
117 Stat. 2651. Section 308 of the 2003 Act, as codified,
provides that contracting officers “may award contracts on the basis of competition restricted to small
business concerns owned and controlled by servicedisabled veterans,” provided “the contracting officer
has a reasonable expectation that not less than 2 small
business concerns owned and controlled by servicedisabled veterans will submit offers and that the
award can be made at a fair market price.” 15 U.S.C.
§ 657f(b). It also provides, however, that such a
procurement may not be made from a source on this
basis “if the procurement would otherwise be made
from a different source under section 4124 or 4125 of

6a
title 18 or chapter 85 of title 41,” the latter including
the JWOD. Id. § 657f(c).1
4. The VBA and the VA’s Regulations and
Guidance
Congress enacted the VBA in 2006, seeking to remedy
federal agencies’ failures to meet these contracting
goals.2 In section 502 of the VBA, Congress required
the Secretary of Veterans Affairs to establish specific
annual goals for the VA’s own contract awards to
veteran-owned small business and to service-disabled
veteran-owned small businesses. See 38 U.S.C. § 8127(a).
Congress also created a preference for awarding contracts restricted to veteran-owned small business,
known as the “Rule of Two,” which provides:
(d) USE OF RESTRICTED COMPETITION.—
Except as provided in subsections (b) and (c), for
purposes of meeting the goals under subsection
(a), and in accordance with this section, a contracting officer of the [VA] shall award contracts
on the basis of competition restricted to small business concerns owned and controlled by veterans if
the contracting officer has a reasonable expectation that two or more small business concerns
owned and controlled by veterans will submit
offers and that the award can be made at a fair
and reasonable price that offers best value to the
United States.
Id. § 8127(d). Subsections (b) and (c) give contracting
officers discretion to award contracts below certain
1

Sections 4124 and 4125 govern federal procurements of prisonmade products and prisoner-conducted public services, respectively.
2

The VBA is codified, in relevant part, at 38 U.S.C. §§ 8127–
8128 (2016).

7a
dollar thresholds to veteran-owned small businesses
without using competitive procedures (very small contracts) or on a sole-source basis (slightly larger contracts).
Id. §§ 8127(b) & (c). Unlike the 2003 Act, the VBA
contains no express exception for procurements which
would “otherwise be made from a different source under
section 4124 or 4125 of title 18 or chapter 85 of title 41.”
In response to the VBA, the VA established the
“Veterans First Contracting Program” on June 20, 2007.
Under the program, contracting officers were directed
to give service-disabled veteran-owned small businesses and veteran-owned small businesses first and
second priority status when awarding contracts for VA
procurements by undertaking the Rule of Two analysis set forth in § 8127(d). After a period for notice and
comment, the VA published its final rules implementing this program with an effective date of January 7,
2010. See VA Acquisition Regulation: Supporting
Veteran-Owned and Service-Disabled Veteran-Owned
Small Businesses, 74 Fed. Reg. 64,619 (Dec. 8, 2009).
Notably, though the regulations do not say so, in
response to comments regarding the interaction between
the new program and the AbilityOne program, the VA
indicated that the rule would “not alter AbilityOne’s
status in the ordering preference for current or future
items on the AbilityOne procurement list.” Id. at 64,622.
5. The FAR and VAAR
The Federal Acquisition Regulation (“FAR”) is a set
of uniform policies and procedures for government acquisition of supplies and services, codified at 48 C.F.R.
Part 19, that implements, among other statutes, the
Competition in Contracting Act, the JWOD, and the
SBA. Prior to the promulgation of FAR, the General
Services Administration issued regulations that provided guidance to agencies as to how they should

8a
prioritize the myriad policies that affect government
procurement. See Procurement Sources and Programs;
Priorities for Use of Supply Sources, 44 Fed. Reg.
47,934, 47,935 (Aug. 16, 1979). In Part 8, FAR adopted
a prioritization schedule providing that, subject to certain exceptions, “agencies shall satisfy requirements
for supplies and services from or through the mandatory Government sources and publications” according
to a “descending order of priority.” 48 C.F.R. § 8.002(a)
(2002). This regulation explains that procurement of
“[s]upplies which are on the [AbilityOne List]” takes
priority over the procurement of supplies listed in
Federal Supply Schedules or government acquisition
contracts. Id.; id. § 8.004; see generally Federal Acquisition Regulation; Prioritizing Sources of Supplies and
Services for Use by the Government, 77 Fed. Reg. 54,872
(Sept. 6, 2012) (explaining the reorganization of FAR).
The VA’s Acquisition Regulation (“VAAR”) is a subset
of the FAR that governs, among other things, VA acquisition procedures. One such VAAR, 48 C.F.R. § 808.002,
contains a priority order for supplies. The 2009 regulations referenced above are part of the VAAR.
6. The 2010 Letter and Angelica Textile
On April 28, 2010, the VA issued a letter setting
forth guidelines to its contracting staff about the
Veterans First Program and addressed its interaction
with the AbilityOne program. The stated purpose of
the letter was to “set forth new procedures for gaining
approval to request new requirements be placed on the
AbilityOne Procurement List,” and it directed contracting officers to take a series of steps to explore
whether veteran-owned small businesses and servicedisabled veteran-owned small businesses could provide
the needed services before proposing a requirement
for the List. J.A. 969–71. Among the new steps, a

9a
contracting officer must (1) perform market research
in accordance with Part 10 of the FAR and Part 810 of
the VAAR, and (2) prepare a determination and findings which document the requirement, the results of
the market research performed, and the contracting
officer’s findings. The letter also stated that all
contracting officers must “adhere to the authorities of
[the VBA] prior to placing new requirements on the
AbilityOne Procurement List,” but it distinguished
between items that were on the List as of January 7,
2010 and those that were not:
[A]ll items currently on the AbilityOne Procurement List as of January 7, 2010, will continue to
take priority over the contracting preferences mandated by [the VBA]. However, all new requirements
will be subject to the contracting preferences
mandated by [the VBA] prior to being considered
for placement with the AbilityOne Program. . . .
To ensure appropriate business opportunities are
properly afforded to [service-disabled veteran-owned
small businesses] and [veteran-owned small businesses], all [contracting officers] must adhere to
the authorities and requirements of [the VBA] (38
U.S.C. [§§] 8127–8128) prior to placing new requirements on the AbilityOne Procurement List.
J.A. 1338 (emphases added). Thus, the letter indicated
that items that had been added to the List prior to
January 2010 would be grandfathered in and continue
to receive priority.
About six months after the VA published its 2010
letter, the Claims Court issued its decision in Angelica
Textile Services, Inc. v. United States, 95 Fed.Cl. 208
(2010), a bid-protest case concerning the relationship
between the VBA and the JWOD. The Claims Court
ruled that a contracting officer “intentionally side-

10a
stepped required procedure” when she failed to follow
the steps outlined in the 2010 letter for adding new
services to the List. Angelica Textile, 95 Fed.Cl. at 221.
The court required the VA and its contracting officers
to follow the procedures set forth in the 2010 letter in
follow-on procurements. Id. at 223. The court did not
address items on the list prior to January 2010.
Following the Claims Court’s Angelica Textile decision, AbilityOne “ended cooperation and collaboration
between the AbilityOne Program staff and VA contracting officers regarding [List] additions.” PDS Consultants,
132 Fed.Cl. at 122. It then began to add items to the
List unilaterally, taking the position that, because the
VBA only applied to the VA, and not AbilityOne, it was
not required to perform a Rule of Two analysis before
adding items to the List. Id.
7. Kingdomware
In 2016, the Supreme Court decided Kingdomware,
in which it held that, “[e]xcept when the [VA] uses the
noncompetitive and sole-source contracting procedures in subsections (b) and (c), § 8127(d) requires the
[VA] to use the Rule of Two before awarding a contract
to another supplier.” 136 S.Ct. at 1977. Kingdomware
did not directly address the interaction between § 8127
and the JWOD, however. Its focus, instead, was on
whether the VA had the discretion under § 8127(d) to
place orders under a preexisting Federal Supply
Schedule before resorting to the Rule of Two.
In response to the Supreme Court’s decision, the VA
issued a new policy memorandum, dated July 25, 2016,
again seeking to reconcile the requirements of the VBA
and the JWOD. The memorandum stated that the VA
has a “continuing requirement to comply with all statutory mandates,” including an obligation to purchase

11a
items on the List. J.A. 1301. The memorandum also
included a decision tree, which explained that, if there
is a mandatory source, such as an item on the List,
then the Rule of Two “does not apply.” J.A. 1336.
Nevertheless, the memorandum explained that the VA
will continue to require contracting officers to “conduct
market research” and “apply the VA Rule of Two” as
required under the VBA before the officer can propose
an addition to the List. J.A. 1313.
Then, on March 1, 2017, the VA sent a memorandum to the heads of contracting activities proposing
to amend VAAR § 808.002 to “further define use of
the . . . Rule of Two when considering procuring
supplies or services on the AbilityOne Procurement
List” and to require procurement officials to apply the
Rule of Two before procuring an item on the List if that
item was added to the List on or after January 7,
2010—the date on which the VA’s revised regulations
implementing the VBA became effective—if such an
analysis was not performed before the item was added.
J.A. 1549, 1551.3
With this background in mind, we next review the
procedural history before determining which statute—
the VBA or JWOD—controls when VA procurements
are made.
B. Procedural History
1. The VISNs and Associated Contracts
The items and services at issue in this case are eyewear and eyewear prescription services that the VA
provides through two of its regional Veterans Integrated
Service Networks (“VISNs”) and associated facilities:
3

48 C.F.R. § 808.002 does not yet reflect the changes proposed
by the VA in this memorandum.

12a
VISNs 2 and 7. Eyewear products and services for
VISNs 2 and 7 were added to the List before January
7, 2010—the date on which the revised regulations
implementing the VBA became effective—while those
for VISNs 6 and 8 were added to the List after January
7, 2010.5
4

Prior to the passage of the VBA, AbilityOne, working in coordination with the VA, added eyewear and
eyewear prescription services provided by the Industries
for the Blind to the List for VISNs 2 and 7. It added
eyewear prescription services for VISN 7 in 2002 and
added eyewear for VISN 2 in 2005. Once the products
and services for these VISNs were added to the List,
the VA entered into contracts with the Industries for
the Blind “to produce and provide prescription eyeglasses and associated services to eligible veteran
beneficiaries serviced by VA Medical Centers and all
affiliated out-patient clinics,” specifying that “eyeglasses
will be made to the individual veteran’s prescription.”
PDS Consultants, 132 Fed.Cl. at 121.
After the VA published its 2010 letter, coordination
between VA contracting officers and AbilityOne effec4

VISNs 6 and 8 were also initially at issue, but the parties
agreed at oral argument that they were no longer relevant. Oral
Arg. at 9:16–9:37, 16:47–18:09, available at http://oralarguments.
cafc.uscourts.gov/default.aspx?fl=2017-2379.mp3.
5

The Industries for the Blind initially received contracts to
provide products and services under VISN 7 in 2002 and under
VISN 2 in 2005, and has continuously contracted for these VISNs
since these initial contracts. The Industries for the Blind’s
VISN 2 contract was extended for five months on August 30,
2016, and then again under a sole-source contract that expired on
September 30, 2017. Its VISN 7 contract was extended on July
15, 2016, and is set to expire on July 14, 2021. PDS Consultants,
132 Fed.Cl. at 124.

13a
tively ended. Between 2013 and 2015, AbilityOne, over
negative comments from certain service-disabled
veteran-owned small businesses, added prescription
eyewear requirements for portions of VISN 8 to the
List, leading to a new contract with the Industries for
the Blind. Id.
In February 2016, AbilityOne published a notice in
the Federal Register proposing the addition of eyewear
for all of the VA’s requirements in VISN 6 to the
List. See Procurement List, Proposed Additions and
Deletion, 81 Fed. Reg. 7,510, 2016 WL 538665 (Feb. 12,
2016). Shortly after the issuance of Kingdomware, PDS
Consultants, Inc. (“PDS Consultants”), which alleges
that it can provide eyewear for VISN 6, wrote a letter
to AbilityOne “stating that many of the eyewear products and services that AbilityOne had proposed adding
to the List ‘are the same or similar to the types of
eyeglasses many veteran-owned and service-disabled
veteran-owned businesses currently provide’ to the VA.”
PDS Consultants, 132 Fed.Cl. at 123. PDS Consultants “asserted that adding VISN 6 to the List would
cause the VA to violate § 8127 of the VBA, because
Kingdomware found that the Rule of Two was
mandatory and Congress intended it to cover ‘all VA
procurements, including items already on the AbilityOne
Procurement List.’” Id. (emphasis omitted). On July
19, 2016, PDS Consultants wrote AbilityOne “another
letter encouraging it to ‘work with the VA to ensure
that the [VA] performs the necessary market research
to determine whether the Rule of Two can be satisfied
for VISN 6’ before adding that VISN to the List.” Id.
On August 1, 2016, AbilityOne voted to add eyewear
for VISN 6 to the List. In the notice published in the
Federal Register, AbilityOne addressed PDS Consultants’
comments, stating that, although it appreciated that

14a
it may be possible to purchase eyewear from veteranowned small businesses:
[T]he Commission’s mission and duty is to provide
employment opportunities for people who are
blind or have significant disabilities, many of
whom are veterans . . . . Adding the proposed
products to the Commission’s Procurement List
will provide employment opportunities to a
portion of the U.S. population that has a
historically high rate of unemployment or
underemployment, and is consistent with the
Commission’s authority established by 41 U.S.C.
Chapter 85.
Additions to and Deletions from the Procurement List,
81 Fed. Reg. 51,863, 51,864–65, 2016 WL 4138446
(Aug. 5, 2016) (footnote omitted).
2. The Claims Court Proceedings
PDS Consultants initiated this bid protest in the
Claims Court on August 25, 2016, alleging that it is a
service-disabled veteran-owned small business “engaged
in the business of providing vision related products” and
seeking declaratory and injunctive relief. Specifically,
it sought an injunction requiring the VA to perform
the Rule of Two analysis for VISNs 2, 6, 7, and 8, and
a separate injunction requiring AbilityOne to remove
VISNs 6 and 8 from the List.
The Claims Court, after receiving briefing and
holding a hearing, ruled that the VA is required to
perform a Rule of Two analysis for all procurements
that post-date 2006, when the VBA was passed, and
not just for those items added to the List after January
7, 2010, when the regulations implementing the VBA
became effective. PDS Consultants, 132 Fed.Cl. at 120.
The court first determined that it had jurisdiction over

15a
PDS Consultants’ complaint, disagreeing with the
government’s position that PDS Consultants was
required to challenge additions to the List in federal
district court under the Administrative Procedure Act.
Id. at 126. Turning to the merits, the Claims Court
reasoned that, even though the VBA and the JWOD
are not necessarily in conflict in all instances, (1) the
VA is required to follow one of the two statutes first
when a product or service appears on the List, (2) the
Supreme Court in Kingdomware held that § 8127(d)
obligates the VA to use the Rule of Two “in all
contracting before using competitive procedures,” and
(3) the VBA is “more specific” than the JWOD in that
it applies only to the VA for all of its procurements
while the JWOD addresses agency procurements
generally. Id. at 127–28 (quoting Kingdomware, 136
S.Ct. at 1977). The court concluded that the VA has a
legal obligation under the VBA to perform a Rule of
Two analysis when it seeks to procure eyewear for
VISNs 2 and 7 that have not gone through such an
analysis. Id. at 128. The Claims Court then enjoined
the VA from entering into future contracts with the
Industries for the Blind without first performing a
Rule of Two analysis and entered judgment in favor of
PDS Consultants.
The United States and the Industries for the Blind
timely appealed. We have jurisdiction under 28 U.S.C.
§ 1295(a)(3).
II. DISCUSSION
A. Standard of Review
“In a given case, whether Tucker Act jurisdiction
exists is a question of law that we review without
deference to the decision of the trial court.” Metz v.
United States, 466 F.3d 991, 995 (Fed. Cir. 2006)

16a
(citation omitted). PDS Consultants, as the plaintiff
below, “bears the burden of proving that” the Claims
Court “possessed jurisdiction over his complaint.”
Sanders v. United States, 252 F.3d 1329, 1333 (Fed.
Cir. 2001) (citing Rocovich v. United States, 933 F.2d
991, 993 (Fed. Cir. 1991)).
We review the Claims Court’s rulings on motions for
judgment on the administrative record de novo and
review its factual findings based on the administrative
record for clear error. PAI Corp. v. United States, 614
F.3d 1347, 1351 (Fed. Cir. 2010) (citations omitted). In
a bid protest case, we apply the standard of review set
forth in the Administrative Procedure Act to determine whether the agency’s actions were “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” Bannum, Inc. v. United States,
404 F.3d 1346, 1351 (Fed. Cir. 2005) (quoting 5 U.S.C.
§ 706(2)(A)).
We generally review an agency’s statutory interpretations pursuant to Chevron U.S.A. Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837, 104
S.Ct. 2778, 81 L.Ed.2d 694 (1984); Auer v. Robbins,
519 U.S. 452, 117 S.Ct. 905, 137 L.Ed.2d 79 (1997);
and United States v. Mead Corp., 533 U.S. 218, 229–
30, 121 S.Ct. 2164, 150 L.Ed.2d 292 (2001). Chevron
requires that a court reviewing an agency’s construction of a statute that it administers first discern
“whether Congress has directly spoken to the precise
question at issue.” 467 U.S. at 842, 104 S.Ct. 2778. If
the answer is yes, the inquiry ends, and the reviewing
court must give effect to Congress’s unambiguous
intent. Id. at 842–43, 104 S.Ct. 2778. If the answer is
no, the court must defer to the agency’s construction of
the statute as long as that construction is a reasonable
one. Id. at 843, 104 S.Ct. 2778. Notably, “we owe an

17a
agency’s interpretation of the law no deference unless,
after ‘employing traditional tools of statutory construction,’ we find ourselves unable to discern Congress’s
meaning.” SAS Inst. Inc. v. Iancu, ––– U.S. ––––, 138
S.Ct. 1348, 1358, 200 L.Ed.2d 695 (2018) (quoting
Chevron, 467 U.S. at 843 n.9, 104 S.Ct. 2778).
Here, despite the existence of various regulations and
internal documents purporting to implement the VBA,
neither party argues that the VBA is ambiguous or
that the VAAR regulations or the 2010 and 2016 memoranda are entitled to deference under Chevron. Rather,
both parties argue that the statutes before us—when
properly construed and reconciled—unambiguously
compel the result they seek.
Before turning to the statutory interpretations the
parties urge, we must first consider the question of the
Claims Court’s jurisdiction over PDS Consultants’
complaint.
B. The Claims Court Properly Exercised SubjectMatter Jurisdiction over the Action
The Industries for the Blind argues that the Claims
Court lacked jurisdiction to rule on PDS Consultants’
claims for two reasons.6 First, the Industries for the
Blind contends that PDS Consultants challenges “the
validity of the VAAR and the AbilityOne Program as
a whole,” and that such a challenge to the validity of
a regulation or statute “rests exclusively with the
federal district courts under the authority of the
6

The Government does not appeal this issue. Rather, the
Government has taken the opposing view in related litigation,
contending that such actions are essentially bid protests that fall
under the Claims Court’s jurisdiction. See Nat’l Indus. for the
Blind v. Dep’t of Veterans Affairs, No. 1:17-cv-00992-KBJ (D.D.C.
Aug. 22, 2017), ECF No. 30 at 11–14.

18a
[Administrative Procedure Act].” Indus. for the Blind
Br. 22, 24. Second, the Industries for the Blind argues
that purchases from the List “are not ‘procurements’
for purposes of Tucker Act jurisdiction.” Id. at 28.
Instead, the only List procurements arising under
Tucker Act jurisdiction, according to the Industries for
the Blind, are AbilityOne’s decisions to add or remove
products and services from the List. See id. at 28–29.
The Claims Court can exercise jurisdiction under
the Tucker Act over “an action by an interested party
objecting to a solicitation by a Federal agency for bids
or proposals for a proposed contract or to a proposed
award . . . or any alleged violation of statute or regulation in connection with a procurement or a proposed
procurement.” 28 U.S.C. § 1491(b)(1). The Tucker Act
further provides that the Claims Court “shall have
jurisdiction to entertain such an action without regard
to whether suit is instituted before or after the contract is awarded.” Id.
PDS Consultants’ claims fall squarely within Tucker
Act jurisdiction. An “interested party” under the Tucker
Act is “an actual or prospective bidder or offeror whose
direct economic interest would be affected by the award
of the contract or by failure to award the contract.” 31
U.S.C. § 3551(2)(A); see Am. Fed’n of Gov’t Emps.,
AFL-CIO v. United States, 258 F.3d 1294, 1302 (Fed.
Cir. 2001) (“We . . . construe the term ‘interested party’
in § 1491(b)(1) in accordance with the [Competition in
Contracting Act] . . . .”). PDS Consultants meets this
requirement, as it is an actual or prospective servicedisabled veteran-owned small business bidder on the
VISNs 2 and 7 eyewear procurements whose direct
economic interest would be affected by the contract
award (or failure thereof). And, rather than challenge
the validity of the VAAR and AbilityOne programs as

19a
the Industries for the Blind contends, PDS Consultants alleged a statutory violation—namely, that the
VA acted in violation of the VBA by awarding contracts
without first conducting the Rule of Two analysis.
Industries for the Blind does not—nor could it—
dispute that the VBA is a statute that relates to all VA
procurements. Far from being “tangentially related to
a government procurement,” Cleveland Assets, LLC v.
United States, 883 F.3d 1378, 1381 (Fed. Cir. 2018)
(finding appropriations provision tangential to, and
thus, not “related to” a procurement), the VBA dictates
the methodology the VA must employ for its procurements. As an “alleged violation of statute or regulation
in connection with a procurement or a proposed procurement,” PDS Consultants’ action arises under the
Claims Court’s jurisdiction.
Regarding whether the Industries for the Blind’s
contracts are procurements, we have found “procurements” under the Tucker Act to encompass “all stages
of the process of acquiring property or services, beginning with the process for determining a need for
property or services and ending with contract completion and closeout.” Distributed Sols., Inc. v. United
States, 539 F.3d 1340, 1345–46 (Fed. Cir. 2008) (emphasis omitted). “To establish jurisdiction pursuant to this
definition, [PDS Consultants] must demonstrate that
the government at least initiated a procurement, or
initiated ‘the process for determining a need’ for” eyewear for VISNs 2 and 7. Id. at 1346. PDS Consultants
has satisfied this requirement. The Industries for the
Blind’s agreements in VISNs 2 and 7, stemming from
VA procurements, are legally binding contracts requiring the Industries for the Blind to furnish eyewear and
related services and the VA to pay for it. Such contracts are encompassed within the Tucker Act’s broad
coverage of “procurements.”

20a
Accordingly, the Claims Court did not err in finding
that it had jurisdiction over PDS Consultants’ claims.
C. The VA is Required to Use the Rule of Two
Even When Goods and Services Are on the
List
Now that we have determined that the Claims Court
properly exercised jurisdiction over PDS Consultants’
complaint, we next examine whether the Claims Court
erred in its substantive legal analysis. We conclude
that it did not.
“As in any case of statutory construction, our analysis begins with the language of the statute.” Hughes
Aircraft Co. v. Jacobson, 525 U.S. 432, 438, 119 S.Ct.
755, 142 L.Ed.2d 881 (1999) (internal quotation marks
omitted). “The first step ‘is to determine whether the
language at issue has a plain and unambiguous meaning with regard to the particular dispute in the case.’”
Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450, 122
S.Ct. 941, 151 L.Ed.2d 908 (2002) (quoting Robinson v.
Shell Oil Co., 519 U.S. 337, 340, 117 S.Ct. 843, 136
L.Ed.2d 808 (1997)). We “must read the words ‘in their
context and with a view to their place in the overall
statutory scheme.’” King v. Burwell, ––– U.S. ––––,
135 S.Ct. 2480, 2489, 192 L.Ed.2d 483 (2015) (quoting
FDA v. Brown & Williamson Tobacco Corp., 529 U.S.
120, 133, 120 S.Ct. 1291, 146 L.Ed.2d 121 (2000)). This
is because statutory “[a]mbiguity is a creature not of
definitional possibilities but of statutory context.”
Brown v. Gardner, 513 U.S. 115, 118, 115 S.Ct. 552,
130 L.Ed.2d 462 (1994).
The two statutory provisions at the heart of this case
are the VBA, 38 U.S.C. § 8127(d), and the JWOD, 41
U.S.C. § 8504(a). Section 8127(d) of the VBA provides
that, subject to two exceptions not relevant here, VA

21a
contracting officers “shall award contracts on the basis
of competition restricted to small business concerns
owned and controlled by veterans,” provided they have
a “reasonable expectation” (1) “that two or more small
business concerns owned and controlled by veterans
will submit offers” and (2) “that the award can be made
at a fair and reasonable price that offers best value to
the United States.” 38 U.S.C. § 8127(d). The Supreme
Court in Kingdomware held that, because it contains
the word “shall,” § 8127(d) “unambiguously requires
the [VA] to use the Rule of Two before contracting
under the competitive procedures.” 136 S.Ct. at 1976.
Section 8504(a) of the JWOD also contains the word
“shall.” It provides that “[a]n entity of the Federal
Government intending to procure a product or service
on the [List] . . . shall procure the product or service
from a qualified nonprofit agency for the blind or a
qualified nonprofit agency for other severely disabled”
in accordance with regulations promulgated by and
prices set by AbilityOne, “if the product or service is
available within the period required by the entity.” 41
U.S.C. § 8504(a) (emphasis added). Because § 8504(a)
includes the word “shall” and because it specifies the
terms by and conditions under which federal agencies,
which would include the VA, shall procure products or
services that are on the List, § 8504(a) on its face
seems to also obligate the VA to procure products and
services on the List from qualified nonprofit agencies
for the blind or other severely disabled individuals
where such products and services are “available within
the period required by the entity.” See Kingdomware,
136 S.Ct. at 1977 (“Unlike the word ‘may,’ which
implies discretion, the word ‘shall’ usually connotes a
requirement.”).

22a
As both statutes contain mandatory language, we
must determine whether and to what extent they
conflict with one another. If it is possible to give effect
to both statutes, we must do so. Watt v. Alaska, 451
U.S. 259, 267, 101 S.Ct. 1673, 68 L.Ed.2d 80 (1981)
(court must read statutes to give effect to each if it can
do so while preserving their sense and purpose). If any
interpretation of the statutory provisions at issue
allows both statutes to remain operative, the court
must adopt that interpretation absent a clear congressional directive to the contrary. Miccosukee Tribe of
Indians of Fla. v. United States Army Corps of Eng’rs,
619 F.3d 1289, 1299 (11th Cir. 2010) (interpretation
that allows both statutes to stand must be employed).
The government argues that any statutory conflict
can be avoided by interpreting § 8127(d) “as applying
only to non-mandatory, competitive awards.” Gov’t Br.
19. It argues that the mandatory procurements under
the JWOD are not governed by § 8127(d), despite the
absence of an express exception to that effect. We do
not read § 8127(d) so narrowly.
Rather than limit its application to competitive contracts, § 8127(d) requires the VA to “award contracts
on the basis of competition.” That is, by its express
language, the statute applies to all contracts—not only
competitive contracts. The statute requires that, when
the Rule of Two is triggered—i.e., when “the contracting officer has a reasonable expectation that two or
more small business concerns owned and controlled by
veterans will submit offers and that the award can be
made at a fair and reasonable price that offers best
value to the United States”—the VA must apply competitive mechanisms to determine to whom the contract
should be awarded. See Kingdomware, 136 S.Ct. at
1976 (finding that the text of § 8127 “requires the [VA]

23a
to apply the Rule of Two to all contracting determinations.” (emphasis added)). And, while § 8127(d) applies
only when the Rule of Two is satisfied, § 8127(i) is
broader and requires the VA to prioritize veterans (with
and without service-connected disabilities) under subsections (b) and (c), even when the Rule of Two is not
satisfied.
So, we must turn to the question of whether an
alternative means for reconciling these provisions can
be found in standard principles of statutory interpretation. We find that it can.
“A basic tenet of statutory construction is that a
specific statute takes precedence over a more general
one.” Arzio v. Shinseki, 602 F.3d 1343, 1347 (Fed. Cir.
2010) (citing Morales v. Trans World Airlines, Inc., 504
U.S. 374, 384, 112 S.Ct. 2031, 119 L.Ed.2d 157 (1992)
(“[I]t is a commonplace of statutory construction that
the specific governs the general.”)); RadLAX Gateway
Hotel, LLC v. Amalgamated Bank, 566 U.S. 639, 645,
132 S.Ct. 2065, 182 L.Ed.2d 967 (2012) (“The general/
specific canon is perhaps most frequently applied to
statutes in which a general permission or prohibition
is contradicted by a specific prohibition or permission.
To eliminate the contradiction, the specific provision
is construed as an exception to the general one.”).
While the JWOD applies to all agencies of the federal
government, the VBA applies only to VA procurements
and only when the Rule of Two is satisfied. The express,
specific directives in § 8127(d), thus, override the more
general contracting requirements of the JWOD.
A comparison of the provisions and stated goals of
the VBA with those of its predecessor, the Veterans
Benefit Act of 2003, reinforces this conclusion. The
2003 Act, unlike the VBA, authorized but did not
require all contracting officers within the federal

24a
government to apply the Rule of Two when contracting
with service-disabled veteran-owned small businesses
(as opposed to all veteran-owned small businesses)
under title 15 of the United States Code. Specifically,
it amended 15 U.S.C. § 657(f) to add the following
provision:
a contracting officer may award contracts on the
basis of competition restricted to small business
concerns owned and controlled by service-disabled
veterans if the contracting officer has a reasonable
expectation that not less than 2 small business
concerns owned and controlled by service-disabled
veterans will submit offers and that the award can
be made at a fair market price.
Pub. L. No. 108-183 § 308, 117 Stat. 2651, 2662 (2003)
(emphasis added). Importantly, the 2003 Act, in addition to applying to all agency procurement decisions
involving service-disabled veteran-owned small businesses, conferred discretion on contracting officers to
apply the Rule of Two through the use of the permissive word “may.” See United States v. Rodgers, 461
U.S. 677, 706, 103 S.Ct. 2132, 76 L.Ed.2d 236 (1983)
(explaining that “[t]he word ‘may,’ when used in a
statute, usually implies some degree of discretion”).
The 2006 VBA, however, includes the mandatory
requirement that VA contracting officers “shall award
contracts on the basis of competition restricted to small
business concerns owned and controlled by veterans”
if the Rule of Two is satisfied, subject to two statutorily
defined, noncompetitive exceptions. 38 U.S.C. § 8127(d)
(emphasis added).
The VBA, moreover, was expressly enacted to
“increase contracting opportunities for small business
concerns owned and controlled by veterans and . . .
by veterans with service-connected disabilities.” 38

25a
U.S.C. § 8127(a)(1). Consistent with the VA’s duty to
support and champion the veteran community, the
VBA created the Veterans First Contracting Program
(“Veterans First”), which requires the VA to give
“contracting priority” to qualified service-disabled
veteran-owned small businesses and veteran-owned
small businesses. See 38 U.S.C. §§ 8127–8128. And it
specifies that the Secretary, “[i]n procuring goods and
services pursuant to a contracting preference under
this title or any other provision of law . . . shall give
priority to a small business concern owned and controlled by veterans, if such business concern also meets
the requirements of that contracting preference.” Id.
§ 8128(a) (emphasis added).
The VBA also lacks any exception for procurements
that would otherwise be governed by the JWOD. We
assume that Congress was aware that it wrote an
exception into the agency-wide Veterans Benefits Act
in 2003 when it left that very same exception out of the
VBA only three years later.
Additionally, “when two statutes conflict, the laterenacted statute controls.” Miccosukee Tribe, 619 F.3d
at 1299; see also United States v. Estate of Romani, 523
U.S. 517, 532, 118 S.Ct. 1478, 140 L.Ed.2d 710 (1998)
(finding later-enacted, more specific statute controlling). As the VBA was enacted over 30 years after the
JWOD was last amended,7 we can infer that Congress
intended the VBA to control in its narrower arena, and
the JWOD to dictate broader procurements outside of
the VA. Because we can give meaning to both statutes
under this interpretation, we avoid any repeal of the
JWOD by implication. See Morton v. Mancari, 417
7

Title 41 was reorganized in 2011, but that recodification did
not substantively amend the relevant language here.

26a
U.S. 535, 549, 94 S.Ct. 2474, 41 L.Ed.2d 290 (1974)
(“[R]epeals by implication are not favored.”). That is,
agencies outside of the VA must still comply with the
JWOD, as does the VA when the Rule of Two is not
implicated. We, therefore, conclude that the requirements of the more specific, later-enacted VBA take
precedence over those of the JWOD when the two
statutes are in apparent conflict.
Our conclusion finds support in the Supreme Court’s
decision in Kingdomware. There, the Court considered
whether the VA must use the Rule of Two every time
it awards contracts, or whether it instead must use
the rule only to the extent necessary to meet annual
minimum goals for contracting with veteran-owned
small businesses. Kingdomware, 136 S.Ct. at 1973.
The Court stated that the VBA’s requirement to set
aside contracts for veteran-owned small businesses “is
mandatory, not discretionary,” and held that the text
of § 8127(d) “unambiguously” requires that the VA
“apply the Rule of Two to all contracting determinations and to award contracts to veteran-owned small
businesses.” Id. at 1976 (emphasis added). It reasoned
that § 8127(d) expressly provides that the VA “shall
award contracts” to veteran-owned small businesses
and service-disabled veteran-owned small businesses
except in two statutorily defined circumstances, and
that the provision “requires” the VA to “use the Rule
of Two before awarding a contract to another supplier.”
Id. at 1977 (emphasis added). The Court held that
these mandatory requirements in the VBA override
the purchase requirements set forth in the Federal
Supply Schedules included in FAR Part 8. Id. at 1978–
79. While the precise question we consider today was
not presented in Kingdomware, we may not ignore the
Court’s finding that the VBA “is mandatory, not discretionary” and that § 8127(d) “requires the Department

27a
to apply the Rule of Two to all contracting determinations and to award contracts to veteran-owned
small businesses.” 136 S.Ct. at 1975–76 (emphasis
added). Competitive or not, placing an item on the
List, or choosing an item therefrom under the JWOD,
is a form of awarding a contract. And under § 8127(d)
and Kingdomware, the VA, in such a situation, is
required to first conduct a Rule of Two analysis.
Our conclusion is not, as the government and the
Industries for the Blind contend, inconsistent with the
FAR. They argue that, even if § 8127(d) applies to all
VA contracts, it is superseded by Part 8 of the FAR,
which “expressly recognizes the AbilityOne Program
as . . . a mandatory Government source requirement.”
Indus. for the Blind Br. 38; see also Gov’t. Br. 30.
According to the Appellants, the FAR requires use of
mandatory sources like AbilityOne prior to competitive sources. We disagree. Even if a regulation could
ever overrule a clear statutory mandate, the FAR does
not purport to do so with respect to § 8127(d). FAR
Part 8 begins by stating, “[e]xcept . . . as otherwise
provided by law,” therefore expressly acknowledging
that the use of “mandatory . . . sources,” like
AbilityOne, can be superseded. 48 C.F.R. § 8.002.
Indeed, under § 8128(a), the Secretary of Veterans
Affairs, when “procuring goods and services pursuant
to a contracting preference under [title 38] or any other
provision of law . . . shall give priority to a small
business concern owned and controlled by veterans, if
such business concern also meets the requirements of
that contracting preference.” 38 U.S.C. § 8128(a)
(emphases added). The phrase “or any other provision
of law” by its terms encompasses the JWOD.
Thus, where a product or service is on the List and
ordinarily would result in the contract being awarded

28a
to a nonprofit qualified under the JWOD, the VBA
unambiguously demands that priority be given to
veteran-owned small businesses. While we are mindful
of Appellants’ policy arguments, we must give effect to
the policy choices made by Congress. We find that by
passing the VBA, Congress increased employment
opportunities for veteran-owned businesses in a narrow
category of circumstances, while leaving intact significant mechanisms to protect such opportunities for the
disabled.
III. CONCLUSION
Considering the plain language of the more specific,
later-enacted VBA, as well as the legislative history
and Congress’s intention in enacting it, we affirm.
AFFIRMED

29a
APPENDIX B
UNITED STATES COURT OF FEDERAL CLAIMS
————
No. 16-1063C
————
PDS CONSULTANTS, INC.,
Plaintiff,
v.
THE UNITED STATES,
Defendant,
and
WINSTON-SALEM INDUSTRIES FOR THE BLIND,
Defendant-Intervenor.
————
(Filed: May 30, 2017)
————
OPINION
FIRESTONE, Senior Judge.
This bid protest concerns the construction of two
statutes: the Veterans Benefits Act of 2006 (“VBA”),
38 U.S.C. § 8127(a), and the Javits-Wagner-O’Day Act,
41 U.S.C. § 8501–06 (“JWOD”). The VBA requires the
Department of Veteran’s Affairs (“VA”) to set goals for
providing contracts to veteran-owned small businesses,
and with exceptions not relevant here, mandates that
before procuring goods and services the VA first determine whether there are at least two veteran-owned
small businesses capable of performing the work. If so,
the VA must limit competition to veteran-owned small

30a
businesses. This process is known as a “Rule of Two”
analysis. The JWOD requires government agencies,
including but not limited to the VA, to purchase
products and services from designated non-profits that
employ blind and otherwise severely disabled people
when those products or services appear on a list known
as the “AbilityOne List” or “List.” The entity responsible for placing goods and services on the List is known
as the “AbilityOne Commission.” The question before
the court in this case is which procurement priority
must the VA first employ: the requirement that the VA
conduct a Rule of Two analysis to determine whether
it must restrict the procurement to veteran-owned
small businesses under the VBA or the requirement
1

1

The priority system is set forth in 38 U.S.C. § 8127(i). It
establishes a first priority for small businesses owned and
controlled by veterans with service-connected disabilities. In this
opinion both preferences are labeled as a priority for small
business owned and controlled by veterans:
Priority for contracting preferences.—Preferences for awarding contracts to small business concerns shall be applied in
the following order of priority:
(1) Contracts awarded pursuant to subsection (b), (c),
or (d) to small business concerns owned and controlled by
veterans with service-connected disabilities.
(2) Contract awarded pursuant to subsection (b), (c),
or (d) to small business concerns owned and controlled by
veterans that are not covered by paragraph (1).
(3) Contracts awarded pursuant to—
(A) section 8(a) of the Small Business Act (15 U.S.C.
637(a)); or
(B) section 31 of such Act (15 U.S.C. 657a).
(4) Contracts awarded pursuant to any other small
business contracting preference.
38 U.S.C. § 8127(i).

31a
that the VA use the AbilityOne List under the JWOD,
regardless of whether the VA has conducted a VBA
Rule of Two analysis.
The VA, faced with these potentially contradictory
contracting preferences, originally took the position
in this litigation that if a product or service appears
on the AbilityOne List for a particular region of the
country the JWOD requires the VA to purchase that
product off of the List without first performing a Rule
of Two analysis. However, during the pendency of the
litigation, the VA changed its position through regulation.2 The VA now agrees that if a product or service
was added to the AbilityOne List after 2010, the VA
will perform the Rule of Two analysis before purchasing off of the List. The new regulation provides,
however, that the VA will continue to purchase items
off of the AbilityOne List without first performing a
Rule of Two analysis for items added to the List before
2010. Plaintiff, PDS Consultants, Inc. (“PDS”), is a
service-disabled veteran-owned small business that
provides eyewear and other vision-related products to
the VA under a number of contracts corresponding to
different regions of the country. PDS argues that under
the Supreme Court’s recent decision in Kingdomware
Technologies, Inc. v. United States, ––– U.S. ––––, 136
S.Ct. 1969, 195 L.Ed.2d 334 (2016), the VA is required
to perform a Rule of Two analysis for all procurements,
regardless of when the item was listed on the AbilityOne
List.3
2

See Veterans Administration Regulation 808.002 issued
March 6, 2017.
3

As discussed below, PDS initially challenged the validity
of all existing contracts with IFB that the VA had entered into
without performing a Rule of Two analysis. Following the government’s change in its regulations, PDS now appears to be challenging

32a
The government, defendant-intervenor, WinstonSalem Industries for the Blind (“IFB”) and amicus
curiae, National Industries for the Blind (“NIB”)4
(collectively, “the defendants”) argue that the JWOD
trumps the VA’s VBA obligations if the product or
service was added to the AbilityOne List before 2010,
when the VA implemented the VBA priority system.
In effect, the defendants argue that for products and
services in the VA regions that were added to the List
before 2010 the VA is permanently exempt from
having to perform the Rule of Two analysis.5
For the reasons that follow, the court finds that the
VA is required to perform a Rule of Two analysis for
all procurements after the VBA was passed. Accordingly,
the VA may not enter into future contracts with IFB
until it performs a Rule of Two analysis and determines
whether two or more veteran-owned small-businesses
can perform the subject work.
I. BACKGROUND
A. The AbilityOne Program
The JWOD, initially passed in 1938 and as amended
in 1971, requires federal agencies to procure products
only “new contracting determinations,” Pl.’s Supp. Brief 3,
including renewing or extending existing contracts, for the
contracting regions in which the VA maintains that it need not
perform a Rule of Two analysis before renewing or issuing a new
contract to organizations on the AbilityOne List.
4

NIB is the non-profit agency designated to represent nonprofit agencies for the blind before the AbilityOne Commission.
As such, NIB determines the suitability of products or services
for the AbilityOne List and recommends fair market prices for
items on the list.
5

The VBA was passed in 2006. However, as discussed below,
the VA’s implementing regulations were issued in 2010.

33a
and services from qualified non-profit agencies that
employ people who are blind or otherwise severely
disabled under a program known as “AbilityOne.” 41
U.S.C. § 8501–06. To that end, the JWOD requires
AbilityOne, acting through the presidentially-appointed
AbilityOne Commission (“Commission”), to establish
and maintain a procurement list (“AbilityOne List” or
“List”) of “suitable” products and services produced by
non-profits that AbilityOne has qualified as a nonprofit organization for the blind or severely disabled.
Id. at § 8503(a). After AbilityOne adds a product or
service to the List using the Administrative Procedures
Act’s (“APA”) notice and comment procedures, id. at
§ 8503(a)(2), the JWOD states “[a]n entity of the
Federal Government intending to procure a product or
service on the procurement list . . . shall procure the
product or service” from a qualified non-profit agency
for the blind or severely disabled. 41 U.S.C. § 8504. In
other words, once an item is added to the AbilityOne
List, the JWOD requires federal agencies to purchase
that product from the designated non-profit. According
to amicus NIB, the VA accounts for approximately
15.1% of the AbilityOne sales to government agencies
in 2015, and “provided jobs for approximately 630
blind or visually impaired individuals, many of whom
are veterans.” NIB Brief at 1.
While the AbilityOne Commission has final authority for adding products and services to the List, it has
historically worked with agencies, including the VA,
when determining what items should be added to the
List. 41 U.S.C. § 8503(d) (giving the Commission authority to add items to the procurement list); Administrative
Record (“AR”) 708 (“Although the Javits-Wagner O’Day
Act gives the Commission statutory authority to determine which products or services are suitable to be
added to the [AbilityOne List], the Commission strives

34a
to accomplish its mission of creating employment
through cooperation and collaboration between the
Commission and other federal agencies.”).
Prior to the passage of the VBA in 2006, AbilityOne
added eyewear and eyewear prescription services provided by defendant-intervenor IFB, a qualified nonprofit, to the List for specific regions, referred to as
Veterans Integrated Service Network (“VISNs”). The
eyewear and eyewear prescription services were added
with the VA’s concurrence and participation. Working
in coordination with the VA, AbilityOne added to the
List eyewear prescription services for VISN 7 in 2002,
and added VISN 2 in 2005. Once on the List the VA
entered into contracts with IFB “to produce and provide prescription eyeglasses and associated services to
eligible veteran beneficiaries serviced by VA Medical
Centers and all affiliated out-patient clinics . . . . The
eyeglasses will be made to the individual veteran’s
prescription.” AR 275.
B. The Veterans Benefit Act
Congress passed the current version of the VBA on
December 22, 2006, PL 109-461, December 22, 2006,
120 Stat. 3403. The purpose of the VBA was to
“increase contracting opportunities for small business
concerns owned and controlled by veterans and small
business concerns owned and controlled by veterans
with service-connected disabilities.” 38 U.S.C. § 8127(a).
To that end, the VA is required to set specific annual
goals for VA contracts to be awarded to veteran-owned
small businesses and service-disabled veteran-owned
small businesses. Id. at § 8127(a)(1). Further, the VBA
included the “Rule of Two,” which restricts competition for contracts to veteran-owned small businesses
and service-disabled veteran-owned small businesses
in cases where the contracting officer “has a reason-

35a
able expectation that two or more small business
concerns owned and controlled by veterans will submit
offers and that the award can be made at a fair and
reasonable price that offers best value to the United
States.” Id. at § 8127(d). Unlike the JWOD which
applies across government agencies, the VBA applies
only to services and supplies procured by the VA. See
48 C.F.R. § 819.7002; Angelica Textile Servs., Inc. v.
United States, 95 Fed.Cl. 208, 222 (2010).
C. The VA’s Attempts to Integrate their Obligations under the JWOD with their Obligations
under the VBA
1. The 2010 Guidelines
In 2010, the VA issued its initial guidelines addressing the potential conflict between the VBA and the
JWOD. As this court explained in Angelica Textile, 95
Fed.Cl. at 213–214, the VA’s guidelines stated that the
agency would give first priority to all items already on
the AbilityOne List. However, the VA determined that
before working with AbilityOne to add any new items
to the AbilityOne List, the VA’s contracting officer
(“CO”) would first perform a Rule of Two analysis to
determine whether qualifying veteran-owned small
businesses were able to perform the procurement. Id.
In Angelica Textile, the court found that the VA
contracting officer did not follow the VA’s guidelines
when laundry services formerly performed by a
veteran-owned small business were added to the
AbilityOne List without the VA performing a Rule of
Two analysis first. Id. at 214.6 The court found that the

6

The government argued that the CO’s actions were not
arbitrary and capricious because the guidelines did not go into
effect until after the CO began the procurement process. Id. at

36a
question of whether the VA’s failure to follow its guidelines was arbitrary, capricious, or not in conformity
with the law turned on “the relationship between the
[VBA] and [JWOD], and the degree of deference the
court owes to the [VA]’s New Guidelines.” Id. at 220.
The court found that the VA’s guidelines did not have
the force of law, but were nevertheless entitled to
Skidmore deference. Id. at 221–22. In finding that the
VA’s decision to give veteran-owned small businesses
priority when adding items to the List was reasonable,
the court noted that it is “a general maxim of statutory
interpretation that a specific statute of specific intention takes precedence over a general statute, particularly
when the specific statute was later enacted.” Id. at 222
(citing Morales v. Trans World Airlines, Inc., 504 U.S.
374, 384–85, 112 S.Ct. 2031, 119 L.Ed.2d 157, (1992);
NISH v. Rumsfeld, 348 F.3d 1263, 1272 (10th Cir.
2003); NISH v. Cohen, 247 F.3d 197, 205 (4th Cir.
2001)). The court found that “[w]here there is a conflict
between the two statutes, the more specific Veterans
Benefits Act would control.” Id. The court found,
however, that though the statutes were in “tension,”
they were not “in direct conflict” with each other. Id.
Under those circumstances, the court found the VA’s
“action in giving first priority to [veteran-owned small
businesses] is justified in light of the terms of the
[VBA].” Id. Accordingly, the court concluded that that
the CO’s actions in assisting AbilityOne in adding
the laundry services to the List before following the
guidelines’ instruction to first perform a Rule of Two
analysis “lacked a rational basis and were arbitrary
and capricious.” Id. Therefore, the court held that
“the laundry services listing shall be elided from the
220. The court rejected this argument because the guidelines
explicitly stated that they were to go into effect immediately. Id.

37a
AbilityOne List without prejudice against future
placement.” Id. at 223.
Following the VA 2010 guidance documents and the
Angelica Textiles decision, AbilityOne “ended cooperation and collaboration between the AbilityOne Program
staff and VA contracting officers regarding PL additions.” AR 708. Thereafter, AbilityOne began to add
items unilaterally. AbilityOne took the position that
because the VBA only applied to the VA, and not to
AbilityOne, therefore AbilityOne was not required to
perform the Rule of Two analysis before adding items
to the List. Id. Rather, AbilityOne contends it has a
statutory mandate to continue to add items to the List.
Id. Because the VA could no longer participate in List
additions without first performing a Rule of Two
analysis, the AbilityOne Commission determined that
the VA “has effectively made unilateral decisions by
the Commission the only means to accomplish its statutory obligations when making additions to the PL for
VA optical products and/or dispensary services.” Id.
In 2013, 2014, and 2015, AbilityOne added and
expanded the List for parts of VISN 8, again leading
to a contract between IFB and the VA. Def.’s MJAR 6
(citing AR Tabs 24, 25, 28, and 10).
2. The Kingdomware Decision and the VA’s
July 2016 Policy Memorandum
The scope of the VA’s VBA responsibilities was recently
addressed by the Supreme Court in Kingdomware
Technologies, Inc. v. United States, ––– U.S. ––––, 136
S.Ct. 1969, 1977, 195 L.Ed.2d 334 (2016). At issue in
that case was the VA’s position that if the VA was
meeting its annual goals for contracts with veteranowned small businesses as required by law, the VA
had the discretion to issue contract awards under the

38a
Federal Supply Schedule (“FSS”) (a list of certain
products and services that government agencies can
quickly acquire without having to go through the
ordinary procurement process) without performing a
Rule of Two analysis. See 74 Fed. Reg. 64624 (2009).
Kingdomware Technologies, Inc., a veteran-owned small
business, challenged the VA’s interpretation of the
VBA, and on June 16, 2016, the Supreme Court issued
a unanimous decision finding that the VBA’s Rule of
Two was mandatory for the procurement of all VA
goods and services and not, as the VA argued, discretionary if the VA was meeting its VBA contracting
goals.
In rejecting the government’s argument that the VA
could purchase items from the FSS without performing a Rule of Two analysis, the Court explained that
the text of § 8127 “requires the Department to apply
the Rule of Two to all contracting determinations and
to award contracts to veteran-owned small businesses.”
Id. at 1975. The Court noted that the VBA stated that
the contracting officer “shall award contracts” using
restricted competition except for certain enumerated
exceptions, and found that the use of the word “shall”
“demonstrates that § 8127(d) mandates the use of the
Rule of Two in all contracting before using competitive
procedures.” Id at 1977 (emphasis added) (citing 38
U.S.C. § 8127(d)). The court found that “[e]xcept when
the Department uses the noncompetitive and solesource contracting procedures in subsections (b) and
(c), § 8127(d) requires the Department to use the Rule
of Two before awarding a contract to another supplier.
The text also has no exceptions for orders from the FSS
system.” Id. at 1977.
In response to the Kingdomware decision, the VA
issued a policy memorandum, dated July 25, 2016,

39a
attempting to reconcile the requirements of the VBA
and the JWOD. AR 656–701. The memorandum stated
that the VA had a “continuing requirement to comply
with all statutory mandates,” including an obligation
to purchase items listed on the AbilityOne List. Id. at
666. A decision tree attached to the memorandum
provided that if there was a mandatory source,
including items on the AbilityOne List, then the Rule
of Two “does not apply.” Id. at 701. However, the VA
continued to take the position that before a contracting
officer could propose an addition to the AbilityOne
List, the contracting officer was required to “conduct
market research” and “apply the VA Rule of Two” as
required under the VBA. Id. at 678.
On February 12, 2016, AbilityOne issued a notice in
the Federal Register proposing the addition of eyewear
for all the VA’s requirements in VISN 6 to the
AbilityOne List. AR 758–59 (81 Fed. Reg. 7510–11).
After the Supreme Court issued its decision in
Kingdomware, PDS wrote a letter to the AbilityOne
Commission stating that many of the eyewear products and services that AbilityOne had proposed adding
to the List “are the same or similar to the types of
eyeglasses many veteran-owned and service-disabled
veteran-owned businesses currently provide” to the
VA. AR 702. PDS asserted that adding VISN 6 to the
List would cause the VA to violate § 8127 of the VBA,
because Kingdomware found that the Rule of Two was
mandatory and Congress intended it to cover “all VA
procurements, including items already on the AbilityOne
Procurement List.” Id. at 703. On July 19, 2016, PDS
wrote the Commission another letter encouraging it to
“work with the VA to ensure that the [VA] performs
the necessary market research to determine whether
the Rule of Two can be satisfied for VISN 6” before
adding that VISN to the List. Id. at 704.

40a
On August 1, 2016, the AbilityOne Commission
voted to add eyewear for VISN 6 to the List. Id. at 727.
In the notice published in the Federal Register,
AbilityOne addressed PDS’s comments, noting that
while the AbilityOne Commission appreciated that it
may be possible to purchase eyewear from veteranowned small businesses:
[T]he Commission’s mission and duty is to provide
employment opportunites for people who are blind
or have significant disabilities, many of whom
are veterans . . . . Adding the proposed products to
the Commission’s Procurement List will provide
employment opportunities to a portion of the
U.S. population that has a historically high rate of
unemployment or underemployment, and is consistent with the Commission’s authority established
by 41 U.S.C. Chapter 85.
Id. at 761–62 (81 Fed. Reg. 51864).
3. Status of Current Contracts and the 2017
Changes to Interim Regulations
According to the Administrative Record, the VISN 2
contract to IFB was last extended August 30, 2016. AR
Tab 2 at AR 75 (stating that the subject contract is
extended for five months, ending January 31, 2017).
At oral argument, the government stated that there is
a sole-source contract extension in place that expires
on September 30, 2017. Oral Argument Tr. 81:15–23.
The current VISN 7 contract with IFB was awarded
July 15, 2016, and is a “five year BPA to be reviewed
annually and updated at that time.” AR 282, Oral
Argument Tr. 82:1–4. This contract expires on July 14,
2021. Oral Argument Tr. 82:4.
VISN 6 was added more recently to the AbilityOne
List and thus there is no current contract with an

41a
AbilityOne contractor. There is a current contract in
place with a service-disabled veteran-owned small
business in VISN 8. Oral Argument Trans. 83:8–10. In
VISN 8, the VA’s contract with an AbilityOne
contractor expires in May of 2017. Oral Argument
Trans. 83:8–10.
On February 13, 2017, two days before oral argument was scheduled on the parties’ cross-motions for
judgment on the Administrative Record in this case,
the government filed a notice of proposed changes in
the VA’s guidelines that would require VA procurement officials to apply the Rule of Two before procuring
an item from the AbilityOne List if that item was
added to the List on or after January 7, 2010 (the date
the VA issued its initial regulations implementing the
VBA) if the Rule of Two analysis was not performed
before the item was added to the List. ECF No. 67. On
March 6, 2017, the government filed a notice that it
had issued a final amendment to its guidelines, codified in Veterans Administration Acquisition Regulation
808.002, with the requirements outlined above. In
light of the government’s change in position, the court
asked the parties to submit supplemental briefing
explaining what issues still remained to be decided in
the pending case. Supplemental briefing was concluded on March 20, 2017.
The government, plaintiff, and defendant-intervenor all agree that in light of the new regulations, the
plaintiff’s challenges to the addition of VISN 6 and
VISN 8, which were added to the List after January
10, 2010, are now moot because the VA has agreed to

42a
perform a Rule of Two analysis before entering into a
contract with a vendor on the List.7
With respect to VISN 2 and VISN 7, the plaintiff
states that the issue still before the court is “[w]hether
the VA must apply the Rule of Two prior to making
new contracting determinations, including contract
awards . . . .” Pl.’s Supp. Brief (ECF No. 71) at 2. The
court understands from this that PDS is no longer
challenging existing contracts in VISN 2 and VISN 7.
Instead, PDS is challenging the VA’s position that it
may issue new contracts in VISN 2 and VISN 7
without first performing a Rule of Two analysis after
the existing contracts expire. Accordingly, the only
issue that remains before the court is whether the VA
may issue additional contracts for VISN 2 and VISN 7
(which were both added to the List prior to the passage
of the VBA) to vendors on the List before performing a
Rule of Two analysis.8
7

The plaintiff argues that because the VA did not use noticeand-comment rulemaking, and because there appear to be errors
in the new guidance, the VA will have to revise the guidance
again. Accordingly, plaintiff argues, the VA could amend or
revoke the new guidance at any time “making the issues raised
in this case ones that could easily recur and that are not completely mooted by the corrective action.” Pl.’s Supp. Brief 3.
In light of the court’s ruling discussed below—that the VA is
required to apply the Rule of Two before entering into a contract
for items on the List and not previously subject to a Rule of Two
analysis—the court rejects the plaintiff’s request for an injunction expressly barring the VA from deviating from the regulation
presented to the court with regard to post-2010 AbilityOne items
that the VA can change its practice in such a manner.
8

PDS states in its supplemental brief that the question of
whether the AbilityOne Commission can unilaterally add products and services to the List without VA input is also an issue
before this court. This issue was discussed at oral argument,
but was not addressed in any of the parties’ cross-motions for

43a
II. STANDARDS OF REVIEW
The government has moved to dismiss this case for
lack of jurisdiction under Rule of the Court of Federal
Claims (“RCFC”) 12(b)(1) and the parties have crossmoved for judgment on the administrative record
under RCFC 52.1.
The Tucker Act provides this court with jurisdiction
to hear bid protests alleging “violation of a statute or
regulation in connection with a procurement or a
proposed procurement.” 28 U.S.C. § 1491(b)(1). As the
Federal Circuit has explained, the court’s bid protest
jurisdiction is “very sweeping in scope.” RAMCOR
Servs. Group v. United States, 185 F.3d 1286, 1289
(Fed. Cir. 1999). A procurement or proposed procurement for the purposes of the Tucker Act “includes all
stages of the process of acquiring property or services,
beginning with the process for determining a need for
property or services and ending with contract completion and closeout.” Distributed Solutions, Inc. v. United
States, 539 F.3d 1340, 1345–46 (Fed. Cir. 2008). In
considering a motion to dismiss for lack of jurisdiction,
“a court must accept as true all undisputed facts
asserted in the plaintiff’s complaint and draw all
reasonable inferences in favor of the plaintiff.” Acevedo
v. United States, 824 F.3d 1365, 1368 (quoting Trusted
Integration, Inc. v. United States, 659 F.3d 1159, 1163
(Fed. Cir. 2011)).
The APA, 5 U.S.C. § 706(2)(A), provides the applicable standard of review for a bid protest. Advanced
judgment on the administrative record. Because the plaintiff did
not challenge AbilityOne’s authority in its initial briefing, and
because this issue was affected by the government’s change in its
guidance letter, the court finds that this issue is not properly
before the court.

44a
Data Concepts, Inc. v. United States, 216 F.3d 1054,
1057–1058 (Fed. Cir. 2000). Accordingly, the court’s
review is limited to determining whether an agency’s
action is “arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.” Id. at 1057.
In this case, the plaintiffs are only alleging a violation
of the law. Under the Supreme Court’s decision in
Chevron, U.S.C. [sic] v. Natural Resources Defense
Council, Inc., 467 U.S. 837, 842–43, 104 S.Ct. 2778, 81
L.Ed.2d 694 (1984), when reviewing a challenge to
an agency’s interpretation of a statute, a court must
first determine whether the statute is ambiguous. If
Congress’s intent is unambiguous, the court must
“give effect to the unambiguously expressed intent of
Congress” and end the inquiry. Chevron, 467 U.S.
at 842, 104 S.Ct. 2778. In determining whether the
statute is ambiguous, the court “employ[s] traditional
tools of statutory construction and examine ‘the
statute’s text, structure, and legislative history, and
apply the relevant canons of interpretation.’” Kyocera
Solar, Inc. v. United States Int’l Trade Comm’n, 844
F.3d 1334, 1338 (Fed. Cir. 2016) (quoting Heino v.
Shinseki, 683 F.3d 1372, 1378 (Fed. Cir. 2012)). If the
statute is “silent or ambiguous,” then the court must
determine “whether the agency provided ‘a permissible construction of the statute.’” Fitzgerald v. Dep’t of
Homeland Security, 837 F.3d 1346, 1353 (Fed. Cir.
2016) (quoting Chevron, 467 U.S. at 843, 104 S.Ct. 2778).
III. DISCUSSION
A. The Court has Jurisdiction over PDS’s
Complaint
Before reaching the merits of the parties’ arguments
regarding the proper construction of the VBA and the
JWOD, the court will address the government’s argument that this court lacks jurisdiction over this case.

45a
See Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 718
(Fed. Cir. 2014) (noting that “a court must assure itself
of its own jurisdiction before resolving the merits of a
dispute . . .” (citing Diggs v. Dep’t of Hous. & Urban
Dev., 670 F.3d 1353, 1355 (Fed. Cir. 2011)). For the
reasons stated below, the court finds that none of the
government’s objections deprive this court of jurisdiction over PDS’s protest.
In its initial briefing, PDS challenged both existing
contracts between the VA and IFB and the addition of
VISNs to the List when the VA had not first performed
a Rule of Two analysis. For the first time at oral argument, the government argued that PDS was required
to challenge additions to the List as an APA challenge
before a federal district court, not as a bid protest action
in this court, and therefore, the court lacks jurisdiction
over PDS’s challenge. The court disagrees. Following
the government’s change in its regulations in March
2017, PDS is seeking to prevent the VA from awarding
future contracts to IFB in VISNs 2 and 7 without first
performing a Rule of Two analysis. This is a challenge
to the VA’s decision not to perform a Rule of Two
analysis when the contract for VISN 2 and VISN 7
expire and are up for renewal. This court’s bid protest
jurisdiction is “very sweeping in scope.” RAMCOR, 185
F.3d at 1289. In fact, the VA has made it clear that,
absent intervention from this court, it will continue to
enter into contracts with IFB for eyewear without
performing a Rule of Two analysis in VISNs 2 and 7.
Accordingly, PDS’s challenge is “in connection with a
procurement or a proposed procurement,” 28 U.S.C.
§ 1491(b)(1), and thus is within the court’s bid protest
jurisdiction. The government’s motion to dismiss is
denied.

46a
B. The VA is Required to Conduct a Rule of
Two analysis for New Contracts Regardless
of when the VISN was Added to the
Procurement List
Turning to the merits of the parties’ dispute the court
finds the issue to be decided is correctly stated by the
plaintiff. The plaintiff phrases its understanding of
the issue remaining in this case as “[w]hether the VA
must apply the VBA Rule of Two prior to making new
contracting determinations, including contract awards,
as indicated in Kingdomware Technologies, Inc. v. United
States, ––– U.S. ––––, 136 S.Ct. 1969, 195 L.Ed.2d 334
(2016), for products and services currently listed on
the Procurement List for VA facilities located in [VISN]
2 and VISN 7, which were added to the Procurement
List prior to January 7, 2010.” Pl.’s Supp. Brief at 2.
The government phrases its understanding slightly
differently: “Whether the VA reasonably interpreted
the [VBA] of 2006 when it identified the pre-VBA List
additions of VISN 2 and VISN 7 as mandatory sources
and awarded two contracts to [IFB] without applying
the Rule of Two.” Def.’s Supp. Brief at 2. The court
finds that the government misstates the issue at hand
and that the plaintiff’s statement of the issue is
correct. The question before the court is not whether
the VA was wrong to award the initial contract to IFB,
but whether, after passage of the VBA in 2006, the VA
was required to perform a Rule of Two analysis before
treating the AbilityOne List as a mandatory source for
any new contracts. The court finds that the VBA
requires the VA to perform the Rule of Two analysis
for all new procurements for eyewear, whether or not
the product or service appears on the AbilityOne List,
because the preference for veterans is the VA’s first
priority. If the Rule of Two analysis does not demonstrate that there are two qualified veteran-owned

47a
small businesses willing to perform the contract, the
VA is then required to use the AbilityOne List as a
mandatory source.
The defendants argue that the JWOD and the VBA
are not directly in conflict. Further, defendants argue
that the VA’s solution, as expressed in its new guidelines, which gives effect to both statutes by requiring
the VA to perform a Rule of Two analysis for all
procurements except for products and services that
were put on the AbilityOne List before 2010 should be
upheld. According to the government, neither the VBA
nor the JWOD express a priority for competitive
awards, and therefore, the VA’s construction of the two
statutes should be afforded deference under the Supreme
Court’s decision in Chevron. The government argues
that Congress did not “unambiguously express[ ] a
priority for veteran-owned small businesses over mandatory sources identified on the procurement list,” Def.’s
MJAR 21. Therefore, the government argues, “the VA
is being required to apply two statutory mandates that
Congress did not prioritize expressly, this Court
should defer to the VA’s reasonable construction of the
Veterans Benefit Act.” Id. at 23.
The court agrees that the VBA and the JWOD are
not necessarily in conflict in all instances. However,
the VA can necessarily only follow one of the statutes
first when a product or service appears on the AbilityOne
List. In that connection, the court must decide whether
the VA’s decision to exclude pre-2010 AbilityOne listed
items from any VBA reevaluation after enactment of
the VBA is lawful. The court finds that the statutory
language of the VBA, as explicated by the Supreme
Court in Kingdomware, establishes a preference for
veteran-owned small businesses as the VA’s first
priority. As the Supreme Court stated in Chevron, if a

48a
statute is clear, the court must “give effect to the
unambiguously expressed intent of Congress.” 467
U.S. at 843, 104 S.Ct. 2778. The statute is interpreted
“employing traditional tools of statutory construction.”
Id. at 843 n.9, 104 S.Ct. 2778. If “the statutory
language is unambiguous and ‘the statutory scheme
is coherent and consistent . . . the inquiry ceases.’”
Kingdomware, 136 S.Ct. at 1976 (quoting Barnhart v.
Sigmon Coal Co., 534 U.S. 438, 450, 122 S.Ct. 941, 151
L.Ed.2d 908 (2002)).
Under the VBA, the VA must perform a Rule of Two
inquiry that favors veteran-owned small businesses
and service-disabled veteran-owned small businesses
“in all contracting before using competitive procedures” and limit competition to veteran-owned small
businesses when the Rule of Two is satisfied. Id. at
1977. The VBA states that, except for certain inapplicable exceptions:
[A] contracting officer of the Department shall
award contracts on the basis of competition
restricted to small business concerns owned and
controlled by veterans if the contracting officer
has a reasonable expectation that two or more
small business concerns owned and controlled by
veterans will submit offers and that the award can
be made at a fair and reasonable price that offers
best value to the United States.
38 U.S.C. § 8127(d). The VBA also states that
In procuring goods and services pursuant to a
contracting preference under this title or any
other provision of law, the Secretary shall give
priority to a small business concern owned and
controlled by veterans, if such business concern
also meets the requirements of that contracting
preference.

49a
38 U.S.C. § 8128(a). Based on this language, the
Supreme Court found in Kingdomware that § 8127(d)
was mandatory, and therefore “before contracting with
a non-veteran-owned business, the Department must
first apply the Rule of Two.” 136 S.Ct. at 1977. The
court found that the mandatory nature of the VBA
“demonstrates that § 8127(d) mandates the use of the
Rule of Two in all contracting before using competitive
procedures.” Id. at 1977 (emphasis added).
IFB argues that under the language of the VBA the
JWOD can be reasonably interpreted as taking priority
because the VBA only applies to competitive procurements, and that procurements under the JWOD are
not “competitive” procurements. The court finds, however, that IFB’s reading of the VBA is contrary to
the Supreme Court’s holding in Kingdomware, which
expressly held that the Rule of Two was “mandatory,
not discretionary,” and that it thus covered the noncompetitive procurements authorized under the FSS.
See 136 S.Ct. at 1976. In this connection, the Supreme
Court expressly noted that the VBA contained “no
exceptions for orders from the FSS system.” Id. at
1977. Importantly, like the FFS, the VBA also does not
contain an exception for obtaining goods and services
under the AbilityOne program. Indeed, the court finds
it significant that an earlier version of the 2006 VBA,
the Veterans Benefit Act of 2003, contained an explicit
exception for contracts under the JWOD which was
eliminated in the final legislation. See Pub. L. No. 108183 § 308, December 16, 2003, 117 Stat. 2651 (“A
procurement may not be made from a source on the
basis of a preference provided under subsection (a) or
(b) if the procurement would otherwise be made from
a different source under section 4124 or 4125 of title
18, United States Code, or the Javits-Wagner-O’Day
Act”). The fact that Congress did not include this

50a
exception in the 2006 enactment strongly indicates
that Congress meant for the VBA to apply before
the VA was required to turn to the AbilityOne List
under the JWOD. It is well settled, “[w]here Congress
includes language in an earlier version of a bill but
deletes it prior to enactment, it may be presumed that
the [omitted text] was not intended.” Russello v.
United States, 464 U.S. 16, 23–24, 104 S.Ct. 296, 78
L.Ed.2d 17 (1983).
Further, because the VBA is a more specific than the
JWOD statute in that it applies only to the VA for all
of its procurements, the VBA must be read to take
precedence over the JWOD. See Arzio v. Shinseki, 602
F.3d 1343, 1347 (Fed. Cir. 2010) (citing Morales v.
Trans World Airlines, Inc., 504 U.S. 374, 384, 112
S.Ct. 2031, 119 L.Ed.2d 157 (1992)) (“A basic tenet of
statutory construction is that a specific statute takes
precedence over a more general one.”). This conclusion
was stated in Angelica Textiles as follows:
The Veterans Benefits Act is a specific mandate to
the Department . . . to grant first priority to
[service-disabled veteran-owned small businesses]
and [veteran-owned small businesses] in the awarding of contracts. On the other hand, the JavitsWagner-O’Day Act is a more general procurement
statute. Were there a conflict between the two
statutes, the more specific Veterans Benefits Act
would control.
Angelica Textiles, 95 Fed.Cl. at 222. This court agrees
with the Angelica Textile court’s reading of the statutes and thus finds that the VA has a legal obligation
to perform a Rule of Two analysis under the VBA when
it seeks to procure eyewear in 2017 for VISNs 2 and 7
that have not gone through such analysis—even though
the items were placed on the AbilityOne List before

51a
enactment of the VBA. The VA’s position that items
added to the List prior to 2010 are forever excepted
from the VBA’s requirements is contrary to the VBA
statute no matter how many contracts are issued or
renewed.9
C. Laches
Regardless of the merits, the government also argues
that PDS’s claim for relief should be barred under the
doctrine of laches with respect to PDS’s challenges to
contracts for VISNs 2 and 7, on the grounds that those
items were listed on the AbilityOne List as far back as
2002. The affirmative defense of laches “bars a claim
when a plaintiff’s ‘neglect or delay in bringing suit
to remedy an alleged wrong, which taken together
with lapse of time and other circumstances, causes
prejudice to the adverse party.’” Nat’l Telecommuting
Inst., Inc. v. United States, 123 Fed.Cl. 595, 602 (2015)
(quoting Land Grantors in Henderson, Union, &
Webster Counties v. United States, 86 Fed.Cl. 35, 47
(2009)). A party seeking to invoke laches must demonstrate two things: first “unreasonable and unexcused
delay by the claimant,” and second, “prejudice to the
other party, either economic prejudice or ‘defense
prejudice’—impairment of the ability to mount a
defense due to circumstances such as loss of records,
9

The court rejects the defendants’ contention that giving the
VBA priority effectively repeals the JWOD by implication. The
VBA is a specific priority statute that does not mandate a result
but a process which may or may not result in a contract award to
a veteran-owned small business. If the Rule of Two is not
satisfied, the VA remains required under the JWOD to purchase
products and services that appear on the AbilityOne List. By its
terms the VBA did not repeal the JWOD. Rather, as the VBA
states, where the VBA applies the Rule of Two is satisfied,
veteran-owned small businesses have the first priority.

52a
destruction of evidence, or witness unavailability.”
JANA, Inc. v. United States, 936 F.2d 1265, 1269–1270
(Fed. Cir. 1991) (citing Cornetta v. United States, 851
F.2d 1372, 1377–78 (Fed. Cir. 1988)).
With respect to the first element, the court finds
PDS’s delay in bringing this case was not “unreasonable and unexcused” in light of the recent decision in
Kingdomware, which clarified the mandatory nature
of the VBA and the VA’s most procurement guidance
which was issued on June 16, 2016. With respect to
the element of prejudice the court finds that IFB’s
allegations of prejudice are not sufficient to warrant
the application of laches in this case. IFB states:
Since the inception the 2006 VA Act was passed
through the current, IFB has spent considerable
resources building an infrastructure to service the
VISN 2, 7 and 8 contracts and to recruit and train
the workers to perform under those contracts. As
such, IFB stands to suffer substantial harm by
Plaintiff’s delay. IFB’s financial investments and
the human capital investments IFB’s blind workers
in reliance on the continuation of these contracts
is clearly demonstrated . . .
IFB’s MJAR 35–36.
As noted above, the court does not understand that
PDS is challenging the existing contracts between
IFB and the VA. Rather, it is seeking only to prevent
the VA from “making new contracting determinations,
including contract awards,” for VISNs 2 and 7 without
first applying the Rule of Two. Pl.’s Supp. Brief at 2.
Thus IFB will not lose all of its investment immediately. In addition, the court is mindful that while IFB
had expected that its contracts in VISNs 2 and 7 would
be renewed as mandatory sources under the JWOD for

53a
years to come, IFB has had more than ten years of
business following enactment of the VBA. Indeed,
application of the Rule of Two analysis may or may not
result in loss of VISNs 2 and 7 work in the future. In
such circumstances, prejudice is not so great as to
outweigh the VA’s obligation to meet its statutory
mandate under the VBA. For these reasons, the
government’s laches defense is rejected.
IV. CONCLUSION
For the reasons stated above, IFB and the government’s motions to dismiss under RCFC 12(b)(1) and
motion for judgment on the administrative record are
DENIED. PDS’s cross-motion for judgment on the
administrative record is GRANTED. The VA is ordered
not to enter into any new contracts for eyewear in
VISNs 2 and 7 from the AbilityOne List unless it first
performs a Rule of Two analysis and determines that
there are not two or more qualified veteran-owned
small businesses capable of performing the contracts
at a fair price.10
The parties shall have until Friday, May 26, 2017 to
submit a joint proposed judgment that shall include
the expiration dates of all active contracts in VISNs 2
and 7 under the AbilityOne program, and shall include
a timeline of the VA’s plan to conduct a Rule of Two
analysis for any further contracts.
IT IS SO ORDERED.

10

In its supplemental briefing following the change in the VA’s
guidance documents, PDS requested an order granting costs and
reasonable attorneys’ fees based upon the government’s corrective action. The court will address this issue at a later date if PDS
files a motion for fees and costs in accordance with the court’s
rules.

54a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-2379, 2017-2512
————
PDS CONSULTANTS, INC.,
Plaintiff-Appellee,
v.
UNITED STATES,
WINSTON-SALEM INDUSTRIES FOR THE BLIND,
Defendants-Appellants.
————
Appeals from the United States Court of
Federal Claims in No. 1:16-cv-01063-NBF,
Senior Judge Nancy B. Firestone.
————
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
————
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
————
ORDER
PER CURIAM.
Appellant Winston-Salem Industries For The Blind
filed a combined petition for panel rehearing and rehear-

55a
ing en banc. A response to the petition was invited by
the court and filed by Appellee PDS Consultants, Inc.
The petition was referred to the panel that heard the
appeals, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 17, 2019.
FOR THE COURT
May 10, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

56a
APPENDIX D
————
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
————
38 U.S.C. § 8127. Small business concerns owned
and controlled by veterans: contracting goals
and preferences
(a) Contracting goals.—
(1) In order to increase contracting opportunities
for small business concerns owned and controlled by
veterans and small business concerns owned and
controlled by veterans with service-connected disabilities, the Secretary shall—
(A) establish a goal for each fiscal year for participation in Department contracts (including subcontracts) by small business concerns owned and
controlled by veterans who are not veterans with
service-connected disabilities in accordance with
paragraph (2); and
(B) establish a goal for each fiscal year for participation in Department contracts (including subcontracts) by small business concerns owned and
controlled by veterans with service-connected disabilities in accordance with paragraph (3).
(2) The goal for a fiscal year for participation under paragraph (1) (A) shall be determined by the Secretary.
(3) The goal for a fiscal year for participation under paragraph (1) (B) shall be not less than the Government-wide goal for that fiscal year for participation by small business concerns owned and

57a
controlled by veterans with service-connected disabilities under section 15(g)(1) of the Small Business
Act (15 U.S.C. 644(g)(1)).
(4) The Secretary shall establish a review mechanism to ensure that, in the case of a subcontract of a
Department contract that is counted for purposes of
meeting a goal established pursuant to this section,
the subcontract was actually awarded to a business
concern that may be counted for purposes of meeting
that goal.
(b) Use of noncompetitive procedures for certain small
contracts.—For purposes of meeting the goals under
subsection (a), and in accordance with this section, in
entering into a contract with a small business concern
owned and controlled by veterans or a small business
concern owned and controlled by veterans with service-connected disabilities for an amount less than the
simplified acquisition threshold (as defined in section
134 of title 41), a contracting officer of the Department
may use procedures other than competitive procedures.
(c) Sole source contracts for contracts above simplified
acquisition threshold.—For purposes of meeting the
goals under subsection (a), and in accordance with this
section, a contracting officer of the Department may
award a contract to a small business concern owned
and controlled by veterans or a small business concern
owned and controlled by veterans with service-connected disabilities using procedures other than competitive procedures if—
(1) such concern is determined to be a responsible
source with respect to performance of such contract
opportunity;

58a
(2) the anticipated award price of the contract (including options) will exceed the simplified acquisition threshold (as defined in section 134 of title 41)
but will not exceed $5,000,000; and
(3) in the estimation of the contracting officer, the
contract award can be made at a fair and reasonable
price that offers best value to the United States.
(d) Use of restricted competition.—Except as provided
in subsections (b) and (c), for purposes of meeting the
goals under subsection (a), and in accordance with this
section, a contracting officer of the Department shall
award contracts on the basis of competition restricted
to small business concerns owned and controlled by
veterans or small business concerns owned and controlled by veterans with service-connected disabilities
if the contracting officer has a reasonable expectation
that two or more small business concerns owned and
controlled by veterans or small business concerns
owned and controlled by veterans with service-connected disabilities will submit offers and that the
award can be made at a fair and reasonable price that
offers best value to the United States.
(e) Eligibility of small business concerns.—A small
business concern may be awarded a contract under
this section only if the small business concern and the
veteran owner of the small business concern are listed
in the database of veteran-owned businesses maintained by the Secretary under subsection (f).
(f) Database of veteran-owned businesses.—
(1) Subject to paragraphs (2) through (6), the Secretary shall maintain a database of small business
concerns owned and controlled by veterans, small
business concerns owned and controlled by veterans

59a
with service-connected disabilities, and the veteran
owners of such business concerns.
(2)
(A) To be eligible for inclusion in the database,
such a veteran shall submit to the Secretary such
information as the Secretary may require with respect to the small business concern or the veteran.
Application for inclusion in the database shall constitute permission under section 552a of title 5
(commonly referred to as the Privacy Act) for the
Secretary to access such personal information
maintained by the Secretary as may be necessary
to verify the information contained in the application.
(B) If the Secretary receives an application for
inclusion in the database from an individual
whose status as a veteran cannot be verified because the Secretary does not maintain information
with respect to the veteran status of the individual, the Secretary may not include the small business concern owned and controlled by the individual in the database maintained by the Secretary
until the Secretary receives such information as
may be necessary to verify that the individual is a
veteran.
(3) Information maintained in the database shall
be submitted on a voluntary basis by such veterans.
(4) No small business concern may be listed in the
database until the Secretary has verified, using regulations issued by the Administrator of the Small
Business Administration with respect to the status
of the concern as a small business concern and the
ownership and control of such concern, that—

60a
(A) the small business concern is owned and
controlled by veterans; and
(B) in the case of a small business concern for
which the person who owns and controls the concern indicates that the person is a veteran with a
service-connected disability, that the person is a
veteran with a service-connected disability.
(5) The Secretary shall make the database available to all Federal departments and agencies and
shall notify each such department and agency of the
availability of the database.
(6) If the Secretary determines that the public dissemination of certain types of information maintained in the database is inappropriate, the Secretary shall take such steps as are necessary to maintain such types of information in a secure and confidential manner.
(7) The Secretary may not issue regulations related to the status of a concern as a small business
concern and the ownership and control of such small
business concern.
(8)
(A) If a small business concern is not included
in the database because the Secretary does not
verify the status of the concern as a small business
concern or the ownership or control of the concern,
the concern may appeal the denial of verification
to the Office of Hearings and Appeals of the Small
Business Administration (as established under
section 5(i) of the Small Business Act). The decision of the Office of Hearings and Appeals shall be
considered a final agency action.

61a
(B)
(i) If an interested party challenges the inclusion in the database of a small business concern
owned and controlled by veterans or a small
business concern owned and controlled by veterans with service-connected disabilities based on
the status of the concern as a small business concern or the ownership or control of the concern,
the challenge shall be heard by the Office of
Hearings and Appeals of the Small Business Administration as described in subparagraph (A).
The decision of the Office of Hearings and Appeals shall be considered final agency action.
(ii) In this subparagraph, the term “interested
party” means—
(I) the Secretary; or
(II) in the case of a small business concern
that is awarded a contract, the contracting officer of the Department or another small business concern that submitted an offer for the
contract that was awarded to the small business concern that is the subject of a challenge
made under clause (i).
(C) For each fiscal year, the Secretary shall reimburse the Administrator of the Small Business
Administration in an amount necessary to cover
any cost incurred by the Office of Hearings and Appeals of the Small Business Administration for actions taken by the Office under this paragraph.
The Administrator is authorized to accept such reimbursement. The amount of any such reimbursement shall be determined jointly by the Secretary
and the Administrator and shall be provided from
fees collected by the Secretary under multiple-

62a
award schedule contracts. Any disagreement
about the amount shall be resolved by the Director
of the Office of Management and Budget.
(g) Enforcement penalties for misrepresentation.—
(1) Any business concern that is determined by
the Secretary to have willfully and intentionally
misrepresented the status of that concern as a small
business concern owned and controlled by veterans
or as a small business concern owned and controlled
by service-disabled veterans for purposes of this subsection shall be debarred from contracting with the
Department for a period of not less than five years.
(2) In the case of a debarment under paragraph
(1), the Secretary shall commence debarment action
against the business concern by not later than 30
days after determining that the concern willfully
and intentionally misrepresented the status of the
concern as described in paragraph (1) and shall complete debarment actions against such concern by not
later than 90 days after such determination.
(3) The debarment of a business concern under
paragraph (1) includes the debarment of all principals in the business concern for a period of not less
than five years.
(h) Priority for contracting preferences.—Preferences
for awarding contracts to small business concerns
shall be applied in the following order of priority:
(1) Contracts awarded pursuant to subsection (b),
(c), or (d) to small business concerns owned and controlled by veterans with service-connected disabilities.
(2) Contracts awarded pursuant to subsection (b),
(c), or (d) to small business concerns owned and

63a
controlled by veterans that are not covered by paragraph (1).
(3) Contracts awarded pursuant to—
(A) section 8(a) of the Small Business Act (15
U.S.C. 637(a)); or
(B) section 31 of such Act (15 U.S.C. 657a).
(4) Contracts awarded pursuant to any other
small business contracting preference.
(i) Applicability of requirements to contracts.—
(1) If after December 31, 2008, the Secretary enters into a contract, memorandum of understanding,
agreement, or other arrangement with any governmental entity to acquire goods or services, the Secretary shall include in such contract, memorandum,
agreement, or other arrangement a requirement
that the entity will comply, to the maximum extent
feasible, with the provisions of this section in acquiring such goods or services.
(2) Nothing in this subsection shall be construed
to supersede or otherwise affect the authorities provided under the Small Business Act (15 U.S.C. 631
et seq.).
(j) Annual reports.—Not later than December 31 each
year, the Secretary shall submit to Congress a report
on small business contracting during the fiscal year
ending in such year. Each report shall include, for the
fiscal year covered by such report, the following:
(1) The percentage of the total amount of all contracts awarded by the Department during that fiscal
year that were awarded to small business concerns
owned and controlled by veterans.

64a
(2) The percentage of the total amount of all such
contracts awarded to small business concerns owned
and controlled by veterans with service-connected
disabilities.
(3) The percentage of the total amount of all contracts awarded by each Administration of the Department during that fiscal year that were awarded
to small business concerns owned and controlled by
veterans.
(4) The percentage of the total amount of all contracts awarded by each such Administration during
that fiscal year that were awarded to small business
concerns owned and controlled by veterans with service-connected disabilities.
(k) Definitions.—In this section:
(1) The term “small business concern” has the
meaning given that term under section 3 of the
Small Business Act (15 U.S.C. 632).
(2) The term “small business concern owned and
controlled by veterans” has the meaning given that
term under section 3(q)(3) of the Small Business Act
(15 U.S.C. 632(q)(3)).
(3) The term “small business concern owned and
controlled by veterans with service-connected disabilities” has the meaning given the term “small business concern owned and controlled by service-disabled veterans” under section 3(q)(2) of the Small
Business Act (15 U.S.C. 632(q)(2)).
38 U.S.C. § 8128. Small business concerns owned
and controlled by veterans: contracting priority
(a) Contracting priority.—In procuring goods and services pursuant to a contracting preference under this
title or any other provision of law, the Secretary shall

65a
give priority to a small business concern owned and
controlled by veterans, if such business concern also
meets the requirements of that contracting preference.
(b) Definition.—For purposes of this section, the term
“small business concern owned and controlled by veterans” means a small business concern that is included in the small business database maintained by
the Secretary under section 8127(f) of this title.
41 U.S.C. § 3301. Full and open competition
(a) In general.—Except as provided in sections 3303,
3304(a), and 3305 of this title and except in the case of
procurement procedures otherwise expressly authorized by statute, an executive agency in conducting a
procurement for property or services shall—
(1) obtain full and open competition through the
use of competitive procedures in accordance with the
requirements of this division and the Federal Acquisition Regulation; and
(2) use the competitive procedure or combination
of competitive procedures that is best suited under
the circumstances of the procurement.
(b) Appropriate competitive procedures.—
(1) Use of sealed bids.—In determining the competitive procedures appropriate under the circumstance, an executive agency shall—
(A) solicit sealed bids if—
(i) time permits the solicitation, submission,
and evaluation of sealed bids;
(ii) the award will be made on the basis of
price and other price- related factors;

66a
(iii) it is not necessary to conduct discussions
with the responding sources about their bids;
and
(iv) there is a reasonable expectation of receiving more than one sealed bid; or
(B) request competitive proposals if sealed bids
are not appropriate under subparagraph (A).
(2) Sealed bid not required.—Paragraph (1)(A)
does not require the use of sealed-bid procedures in
cases in which section 204(e) of title 23 applies.
(c) Efficient fulfillment of Government requirements.—The Federal Acquisition Regulation shall ensure that the requirement to obtain full and open competition is implemented in a manner that is consistent
with the need to efficiently fulfill the Federal Government’s requirements.
41 U.S.C. § 3303. Exclusion of particular source
or restriction of solicitation to small business
concerns
(a) Exclusion of particular source.—
(1) Criteria for exclusion.—An executive agency
may provide for the procurement of property or services covered by section 3301 of this title using competitive procedures but excluding a particular source
to establish or maintain an alternative source of supply for that property or service if the agency head
determines that to do so would—
(A) increase or maintain competition and likely
result in reduced overall cost for the procurement,
or for an anticipated procurement, of the property
or services;

67a
(B) be in the interest of national defense in having a facility (or a producer, manufacturer, or
other supplier) available for furnishing the property or service in case of a national emergency or
industrial mobilization;
(C) be in the interest of national defense in establishing or maintaining an essential engineering, research, or development capability to be provided by an educational or other nonprofit institution or a Federally funded research and development center;
(D) ensure the continuous availability of a reliable source of supply of the property or service;
(E) satisfy projected needs for the property or
service determined on the basis of a history of high
demand for the property or service; or
(F) satisfy a critical need for medical, safety, or
emergency supplies.
(2) Determination for class disallowed.—A determination under paragraph (1) may not be made for
a class of purchases or contracts.
(b) Exclusion of other than small business concerns.—
An executive agency may provide for the procurement
of property or services covered by section 3301 of this
title using competitive procedures, but excluding other
than small business concerns in furtherance of sections 9 and 15 of the Small Business Act (15 U.S.C.
638, 644).
(c) Nonapplication of justification and approval requirements.—A contract awarded pursuant to the
competitive procedures referred to in subsections (a)
and (b) is not subject to the justification and approval
required by section 3304(e)(1) of this title.

68a
41 U.S.C. § 3304. Use of noncompetitive procedures
(a) When noncompetitive procedures may be used.—
An executive agency may use procedures other than
competitive procedures only when—
(1) the property or services needed by the executive agency are available from only one responsible
source and no other type of property or services will
satisfy the needs of the executive agency;
(2) the executive agency’s need for the property or
services is of such an unusual and compelling urgency that the Federal Government would be seriously injured unless the executive agency is permitted to limit the number of sources from which it solicits bids or proposals;
(3) it is necessary to award the contract to a particular source—
(A) to maintain a facility, producer, manufacturer, or other supplier available for furnishing
property or services in case of a national emergency or to achieve industrial mobilization;
(B) to establish or maintain an essential engineering, research, or development capability to be
provided by an educational or other nonprofit institution or a Federally funded research and development center;
(C) to procure the services of an expert for use,
in any litigation or dispute (including any reasonably foreseeable litigation or dispute) involving
the Federal Government, in any trial, hearing, or
proceeding before a court, administrative tribunal,
or agency, whether or not the expert is expected to
testify; or

69a
(D) to procure the services of an expert or neutral for use in any part of an alternative dispute
resolution or negotiated rulemaking process,
whether or not the expert is expected to testify;
(4) the terms of an international agreement or
treaty between the Federal Government and a foreign government or an international organization, or
the written directions of a foreign government reimbursing the executive agency for the cost of the procurement of the property or services for that government, have the effect of requiring the use of procedures other than competitive procedures;
(5) subject to section 3105 of this title, a statute
expressly authorizes or requires that the procurement be made through another executive agency or
from a specified source, or the agency’s need is for a
brand-name commercial item for authorized resale;
(6) the disclosure of the executive agency’s needs
would compromise the national security unless the
agency is permitted to limit the number of sources
from which it solicits bids or proposals; or
(7) the head of the executive agency (who may not
delegate the authority under this paragraph)—
(A) determines that it is necessary in the public
interest to use procedures other than competitive
procedures in the particular procurement concerned; and
(B) notifies Congress in writing of that determination not less than 30 days before the award of
the contract.
(b) Property or services deemed available from only
one source.—For the purposes of subsection (a)(1), in
the case of—

70a
(1) a contract for property or services to be
awarded on the basis of acceptance of an unsolicited
research proposal, the property or services are
deemed to be available from only one source if the
source has submitted an unsolicited research proposal that demonstrates a unique and innovative
concept, the substance of which is not otherwise
available to the Federal Government and does not
resemble the substance of a pending competitive
procurement; or
(2) a follow-on contract for the continued development or production of a major system or highly specialized equipment, the property may be deemed to
be available only from the original source and may
be procured through procedures other than competitive procedures when it is likely that award to a
source other than the original source would result
in—
(A) substantial duplication of cost to the Federal
Government that is not expected to be recovered
through competition; or
(B) unacceptable delay in fulfilling the executive agency’s needs.
(c) Property or services needed with unusual and compelling urgency.—
(1) Allowable contract period.—The contract period of a contract described in paragraph (2) that is
entered into by an executive agency pursuant to the
authority provided under subsection (a)(2)—
(A) may not exceed the time necessary—
(i) to meet the unusual and compelling requirements of the work to be performed under
the contract; and

71a
(ii) for the executive agency to enter into another contract for the required goods or services
through the use of competitive procedures; and
(B) may not exceed one year unless the head of
the executive agency entering into the contract determines that exceptional circumstances apply.
(2) Applicability of allowable contract period.—
This subsection applies to any contract in an amount
greater than the simplified acquisition threshold.
(d) Offer requests to potential sources.—An executive
agency using procedures other than competitive procedures to procure property or services by reason of the
application of paragraph (2) or (6) of subsection (a)
shall request offers from as many potential sources as
is practicable under the circumstances.
(e) Justification for use of noncompetitive procedures.—
(1) Prerequisites for awarding contract.—Except
as provided in paragraphs (3) and (4), an executive
agency may not award a contract using procedures
other than competitive procedures unless—
(A) the contracting officer for the contract justifies the use of those procedures in writing and certifies the accuracy and completeness of the justification;
(B) the justification is approved, in the case of a
contract for an amount—
(i) exceeding $500,000 but equal to or less
than $10,000,000, by the advocate for competition for the procuring activity (without further
delegation) or by an official referred to in clause
(ii) or (iii);

72a
(ii) exceeding $10,000,000 but equal to or less
than $50,000,000, by the head of the procuring
activity or by a delegate who, if a member of the
armed forces, is a general or flag officer or, if a
civilian, is serving in a position in which the individual is entitled to receive the daily equivalent of the maximum annual rate of basic pay
payable for level IV of the Executive Schedule (or
in a comparable or higher position under another schedule); or
(iii) exceeding $50,000,000, by the senior procurement executive of the agency designated
pursuant to section 1702(c) of this title (without
further delegation); and
(C) any required notice has been published with
respect to the contract pursuant to section 1708 of
this title and the executive agency has considered
all bids or proposals received in response to that
notice.
(2) Elements of justification.—The justification
required by paragraph (1)(A) shall include—
(A) a description of the agency’s needs;
(B) an identification of the statutory exception
from the requirement to use competitive procedures and a demonstration, based on the proposed
contractor’s qualifications or the nature of the procurement, of the reasons for using that exception;
(C) a determination that the anticipated cost
will be fair and reasonable;
(D) a description of the market survey conducted or a statement of the reasons a market survey was not conducted;

73a
(E) a listing of any sources that expressed in
writing an interest in the procurement; and
(F) a statement of any actions the agency may
take to remove or overcome a barrier to competition before a subsequent procurement for those
needs.
(3) Justification
allowed
after
contract
awarded.—In the case of a procurement permitted
by subsection (a)(2), the justification and approval
required by paragraph (1) may be made after the
contract is awarded.
(4) Justification not required.—The justification
and approval required by paragraph (1) are not required if—
(A) a statute expressly requires that the procurement be made from a specified source;
(B) the agency’s need is for a brand-name commercial item for authorized resale;
(C) the procurement is permitted by subsection (a)(7); or
(D) the procurement is conducted under chapter
85 of this title or section 8(a) of the Small Business
Act (15 U.S.C. 637(a)).
(5) Restrictions on executive agencies.—
(A) Contracts and procurement of property or
services.—In no case may an executive agency—
(i) enter into a contract for property or services using procedures other than competitive
procedures on the basis of the lack of advance
planning or concerns related to the amount
available to the agency for procurement functions; or

74a
(ii) procure property or services from another
executive agency unless the other executive
agency complies fully with the requirements of
this division in its procurement of the property
or services.
(B) Additional restriction.—The restriction set
out in subparagraph (A)(ii) is in addition to any
other restriction provided by law.
(f) Public availability of justification and approval required for using noncompetitive procedures.—
(1) Time requirement.—
(A) Within 14 days after contract award.—Except as provided in subparagraph (B), in the case
of a procurement permitted by subsection (a), the
head of an executive agency shall make publicly
available, within 14 days after the award of the
contract, the documents containing the justification and approval required by subsection (e)(1)
with respect to the procurement.
(B) Within 30 days after contract award.—In
the case of a procurement permitted by subsection
(a)(2), subparagraph (A) shall be applied by substituting “30 days” for “14 days”.
(2) Availability on websites.—The documents referred to in subparagraph (A) of paragraph (1) shall
be made available on the website of the agency and
through a Government-wide website selected by the
Administrator.
(3) Exception to availability and approval requirement.—This subsection does not require the public
availability of information that is exempt from public disclosure under section 552(b) of title 5.

75a
41 U.S.C. § 8501. Definitions
In this chapter:
(1) Blind.—The term “blind” refers to an individual or class of individuals whose central visual acuity does not exceed 20/200 in the better eye with correcting lenses or whose visual acuity, if better than
20/200, is accompanied by a limit to the field of vision in the better eye to such a degree that its widest
diameter subtends an angle of no greater than 20 degrees.
(2) Committee.—The term “Committee” means
the Committee for Purchase From People Who Are
Blind or Severely Disabled established under section
8502 of this title.
(3) Direct labor.—The term “direct labor”—
(A) includes all work required for preparation,
processing, and packing of a product, or work directly relating to the performance of a service; but
(B) does not include supervision, administration, inspection, or shipping.
(4) Entity of the Federal Government and Federal
Government.—The terms “entity of the Federal Government” and “Federal Government” include an entity of the legislative or judicial branch, a military
department or executive agency (as defined in sections 102 and 105 of title 5, respectively) , the United
States Postal Service, and a nonappropriated fund
instrumentality under the jurisdiction of the Armed
Forces.
(5) Other severely disabled.—The term “other severely disabled” means an individual or class of individuals under a physical or mental disability,
other than blindness, which (according to criteria

76a
established by the Committee after consultation
with appropriate entities of the Federal Government
and taking into account the views of non-Federal
Government entities representing the disabled) constitutes a substantial handicap to employment and
is of a nature that prevents the individual from currently engaging in normal competitive employment.
(6) Qualified nonprofit agency for other severely
disabled.—The term “qualified nonprofit agency for
other severely disabled” means an agency—
(A)
(i) organized under the laws of the United
States or a State;
(ii) operated in the interest of severely disabled individuals who are not blind; and
(iii) of which no part of the net income of the
agency inures to the benefit of a shareholder or
other individual;
(B) that complies with any applicable occupational health and safety standard prescribed by
the Secretary of Labor; and
(C) that in the production of products and in the
provision of services (whether or not the products
or services are procured under this chapter) during the fiscal year employs blind or other severely
disabled individuals for at least 75 percent of the
hours of direct labor required for the production or
provision of the products or services.
(7) Qualified nonprofit agency for the blind.—The
term “qualified nonprofit agency for the blind”
means an agency—

77a
(A)
(i) organized under the laws of the United
States or a State;
(ii) operated in the interest of blind individuals; and
(iii) of which no part of the net income of the
agency inures to the benefit of a shareholder or
other individual;
(B) that complies with any applicable occupational health and safety standard prescribed by
the Secretary of Labor; and
(C) that in the production of products and in the
provision of services (whether or not the products
or services are procured under this chapter) during the fiscal year employs blind individuals for at
least 75 percent of the hours of direct labor required for the production or provision of the products or services.
(8) Severely disabled individual.—The term “severely disabled individual” means an individual or
class of individuals under a physical or mental disability, other than blindness, which (according to criteria established by the Committee after consultation with appropriate entities of the Federal Government and taking into account the views of non-Federal Government entities representing the disabled)
constitutes a substantial handicap to employment
and is of a nature that prevents the individual from
currently engaging in normal competitive employment.
(9) State.—The term “State” includes the District
of Columbia, Puerto Rico, the Virgin Islands, Guam,
American Samoa, and the Northern Mariana Islands.

78a
41 U.S.C. § 8502. Committee for purchase from
people who are blind or severely disabled
(a) Establishment.—There is a Committee for Purchase From People Who Are Blind or Severely Disabled.
(b) Composition.—The Committee consists of 15
members appointed by the President as follows:
(1) One officer or employee from each of the following, nominated by the head of the department or
agency:
(A) The Department of Agriculture.
(B) The Department of Defense.
(C) The Department of the Army.
(D) The Department of the Navy.
(E) The Department of the Air Force.
(F) The Department of Education.
(G) The Department of Commerce.
(H) The Department of Veterans Affairs.
(I) The Department of Justice.
(J) The Department of Labor.
(K) The General Services Administration.
(2) One member from individuals who are not officers or employees of the Federal Government and
who are conversant with the problems incident to
the employment of the blind.
(3) One member from individuals who are not officers or employees of the Federal Government and
who are conversant with the problems incident to
the employment of other severely disabled individuals.

79a
(4) One member from individuals who are not officers or employees of the Federal Government and
who represent blind individuals employed in qualified nonprofit agencies for the blind.
(5) One member from individuals who are not officers or employees of the Federal Government and
who represent severely disabled individuals (other
than blind individuals) employed in qualified nonprofit agencies for other severely disabled individuals.
(c) Terms of office.—Members appointed under paragraph (2), (3), (4), or (5) of subsection (b) shall be appointed for terms of 5 years and may be reappointed if
the member meets the qualifications prescribed by
those paragraphs.
(d) Chairman.—The members of the Committee
shall elect one of the members to be Chairman.
(e) Vacancy.—
(1) Manner in which filled.—A vacancy in the
membership of the Committee shall be filled in the
manner in which the original appointment was
made.
(2) Unfulfilled term.—A member appointed under
paragraph (2), (3), (4), or (5) of subsection (b) to fill a
vacancy occurring prior to the expiration of the term
for which the predecessor was appointed shall be appointed only for the remainder of the term. The
member may serve after the expiration of a term until a successor takes office.
(f) Pay and travel expenses.—
(1) Amount to which members are entitled.—Except as provided in paragraph (2), members of the
Committee are entitled to receive the daily

80a
equivalent of the maximum annual rate of basic pay
payable for level IV of the Executive Schedule for
each day (including travel-time) during which they
perform services for the Committee. A member is entitled to travel expenses, including a per diem allowance instead of subsistence, as provided under section 5703 of title 5.
(2) Officers or employees of the Federal Government.—Members who are officers or employees of
the Federal Government may not receive additional
pay because of their service on the Committee.
(g) Staff.—
(1) Appointment and compensation.—Subject to
rules the Committee may adopt and to chapters 33
and 51 and subchapter III of chapter 53 of title 5, the
Chairman may appoint and fix the pay of personnel
the Committee determines are necessary to assist it
in carrying out this chapter.
(2) Personnel from other entities.—On request of
the Committee, the head of an entity of the Federal
Government may detail, on a reimbursable basis,
any personnel of the entity to the Committee to assist it in carrying out this chapter.
(h) Obtaining official information.—The Committee
may secure directly from an entity of the Federal Government information necessary to enable it to carry
out this chapter. On request of the Chairman, the head
of the entity shall furnish the information to the Committee.
(i) Administrative support services.—The Administrator of General Services shall provide to the Committee, on a reimbursable basis, administrative support services the Committee requests.

81a
(j) Annual report.—Not later than December 31 of
each year, the Committee shall transmit to the President a report that includes the names of the Committee members serving in the prior fiscal year, the dates
of Committee meetings in that year, a description of
the activities of the Committee under this chapter in
that year, and any recommendations for changes in
this chapter which the Committee determines are necessary.
41 U.S.C. § 8503. Duties and powers of the Committee
(a) Procurement list.—
(1) Maintenance of list.—The Committee shall
maintain and publish in the Federal Register a procurement list. The list shall include the following
products and services determined by the Committee
to be suitable for the Federal Government to procure
pursuant to this chapter:
(A) Products produced by a qualified nonprofit
agency for the blind or by a qualified nonprofit
agency for other severely disabled.
(B) The services those agencies provide.
(2) Changes to list.—The Committee may, by rule
made in accordance with the requirements of section
553(b) to (e) of title 5, add to and remove from the
procurement list products so produced and services
so provided.
(b) Fair market price.—The Committee shall determine the fair market price of products and services
contained on the procurement list that are offered for
sale to the Federal Government by a qualified nonprofit agency for the blind or a qualified nonprofit
agency for other severely disabled. The Committee

82a
from time to time shall revise its price determinations
with respect to those products and services in accordance with changing market conditions.
(c) Central nonprofit agency or agencies.—The Committee shall designate a central nonprofit agency or
agencies to facilitate the distribution, by direct allocation, subcontract, or any other means, of orders of the
Federal Government for products and services on the
procurement list among qualified nonprofit agencies
for the blind or qualified nonprofit agencies for other
severely disabled.
(d) Regulations.—The Committee—
(1) may prescribe regulations regarding specifications for products and services on the procurement
list, the time of their delivery, and other matters as
necessary to carry out this chapter; and
(2) shall prescribe regulations providing that when
the Federal Government purchases products produced and offered for sale by qualified nonprofit
agencies for the blind or qualified nonprofit agencies
for other severely disabled, priority shall be given to
products produced and offered for sale by qualified
nonprofit agencies for the blind.
(e) Study and evaluation of activities.—The Committee shall make a continuing study and evaluation of its
activities under this chapter to ensure effective and efficient administration of this chapter. The Committee
on its own or in cooperation with other public or nonprofit private agencies may study—
(1) problems related to the employment of the blind
and other severely disabled individuals; and

83a
(2) the development and adaptation of production
methods that would enable a greater utilization of
the blind and other severely disabled individuals.
41 U.S.C. § 8504. Procurement requirements for
the Federal Government
(a) In general.—An entity of the Federal Government
intending to procure a product or service on the procurement list referred to in section 8503 of this title
shall procure the product or service from a qualified
nonprofit agency for the blind or a qualified nonprofit
agency for other severely disabled in accordance with
regulations of the Committee and at the price the
Committee establishes if the product or service is
available within the period required by the entity.
(b) Exception.—This section does not apply to the procurement of a product that is available from an industry established under chapter 307 of title 18 and that
is required under section 4124 of title 18 to be procured
from that industry.
41 U.S.C. § 8505. Audit
For the purpose of audit and examination, the Comptroller General shall have access to the books, documents, papers, and other records of—
(1) the Committee and of each central nonprofit
agency the Committee designates under section
8503(c) of this title; and
(2) qualified nonprofit agencies for the blind and
qualified nonprofit agencies for other severely disabled that have sold products or services under this
chapter to the extent those books, documents, papers, and other records relate to the activities of the
agency in a fiscal year in which a sale was made under this chapter.

84a
41 U.S.C. § 8506. Authorization of appropriations
Necessary amounts may be appropriated to the Committee to carry out this chapter.
48 C.F.R. § 8.000. Scope of part
This part deals with prioritizing sources of supplies
and services for use by the Government.
48 C.F.R. § 8.001. General
Regardless of the source of supplies or services to be
acquired, information technology acquisitions shall
comply with capital planning and investment control
requirements in 40 U.S.C. 11312 and OMB Circular
A–130.
48 C.F.R. § 8.002. Priorities for use of mandatory
Government sources
(a) Except as required by 8.003, or as otherwise provided by law, agencies shall satisfy requirements for
supplies and services from or through the mandatory
Government sources and publications listed below in
descending order of priority:
(1) Supplies.
(i) Inventories of the requiring agency.
(ii) Excess from other agencies (see subpart 8.1).
(iii) Federal Prison Industries, Inc. (see subpart
8.6).
(iv) Supplies that are on the Procurement List
maintained by the Committee for Purchase From
People Who Are Blind or Severely Disabled (see
Subpart 8.7).
(v) Wholesale supply sources, such as stock programs of the General Services Administration

85a
(GSA) (see 41 CFR 101–26.3), the Defense Logistics Agency (see 41 CFR 101–26.6), the Department of Veterans Affairs (see 41 CFR 101–26.704),
and military inventory control points.
(2) Services. Services that are on the Procurement
List maintained by the Committee for Purchase
From People Who Are Blind or Severely Disabled
(see subpart 8.7).
(b) Sources other than those listed in paragraph (a) of
this section may be used as prescribed in 41 CFR 101–
26.301 and in an unusual and compelling urgency as
prescribed in 6.302–2 and in 41 CFR 101–25.101–5.
(c) The statutory obligation for Government agencies
to satisfy their requirements for supplies or services
available from the Committee for Purchase From People Who Are Blind or Severely Disabled also applies
when contractors purchase the supplies or services for
Government use.
48 C.F.R. § 8.003. Use of other mandatory sources
Agencies shall satisfy requirements for the following
supplies or services from or through specified sources,
as applicable:
(a) Public utility services (see part 41).
(b) Printing and related supplies (see subpart 8.8).
(c) Leased motor vehicles (see subpart 8.11).
(d) Strategic and critical materials (e.g., metals and
ores) from inventories exceeding Defense National
Stockpile requirements (detailed information is available from the DLA Strategic Materials, 8725 John J.
Kingman Rd., Suite 3229, Fort Belvoir, VA 22060–
6223.
(e) Helium (see subpart 8.5—Acquisition of Helium).

86a
48 C.F.R. § 8.004. Use of other sources
If an agency is unable to satisfy requirements for supplies and services from the mandatory sources listed
in 8.002 and 8.003, agencies are encouraged to consider satisfying requirements from or through the nonmandatory sources listed in paragraph (a) of this section (not listed in any order of priority) before considering the non-mandatory source listed in paragraph
(b) of this section. When satisfying requirements from
non-mandatory sources, see 7.105(b) and part 19 regarding consideration of small business, veteranowned small business, service-disabled veteran-owned
small business, HUBZone small business, small disadvantaged business (including 8(a) participants), and
women-owned small business concerns.
(a)
(1) Supplies. Federal Supply Schedules, Governmentwide acquisition contracts, multi-agency contracts, and any other procurement instruments intended for use by multiple agencies, including blanket purchase agreements (BPAs) under Federal
Supply Schedule contracts (e.g., Federal Strategic
Sourcing Initiative (FSSI) agreements accessible at
http://www.gsa.gov/fssi (see also 5.601)).
(2) Services. Agencies are encouraged to consider
Federal Prison Industries, Inc., as well as the
sources listed in paragraph (a)(1) of this section (see
subpart 8.6).
(b) Commercial sources (including educational and
non-profit institutions) in the open market.

87a
APPENDIX E
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
BID PROTEST
————
No. 16-1063 C
————
PDS CONSULTANTS, INC.,
Plaintiff,

v.
THE UNITED STATES,
————

Defendant.

COMPLAINT
FOR DECLARATORY AND INJUNCTIVE RELIEF
Plaintiff PDS Consultants, Inc., by counsel, files this
Complaint for Declaratory Judgment, Preliminary
Injunctive Relief, and Permanent Injunctive Relief
against Defendant, the United States of America and
states as follows:
PARTIES
1. Plaintiff PDS Consultants, Inc. (“PDS”) is a corporation organized and existing under the laws of New
York. Its principal place of business is 22 Rainbow
Trail, Sparta, New Jersey. PDS is a service-disabled,
veteran-owned small business, listed as verified in the
Vendor Information Pages (“VIP”) database to receive
awards under the Veterans First Contracting Program.
PDS is engaged in the business of providing vision-

88a
related products (such as eyeglasses and eyeglass
frames) and services to the federal government.
2. Plaintiff is one of at least two small businesses
concerns that are owned and controlled by veterans
and that compete in the vision-related product market.
At least two of these small business concerns that are
owned and controlled by veterans can and will submit
bids or offers to the federal government in response to
the government’s needs for vision-related products and
services. Award can be made to at least two of these
small business concerns that are owned and controlled
by veterans at a fair and reasonable price that offers
best value to the United States.
3. Defendant is the United States of America, acting
by and through the United States Department of
Veterans Affairs (“VA” or “the Department”) and the
United States Committee for the Purchase From People
Who Are Blind or Severely Disabled (the “Committee”
or “AbilityOne”).
NATURE OF THE ACTION
4. The Veterans Benefits, Health Care, and Information Technology Act of 2006, Pub. L. No. 109-461,
120 Stat. 3403-3468 (“the Veterans Benefits Act” or
“VBA,” codified, in relevant part, at 38 U.S.C. §§ 81278128), establishes the Veterans First Contracting
Program and requires the VA to set aside certain
contracts for small business concerns owned and
controlled by veterans, when “procuring goods and
services pursuant to a contracting preference under
[Title 38] or any other provision of law.”
5. On June 16, 2016, the U.S. Supreme Court ruled
that this set-aside requirement “is mandatory, not
discretionary . . . [with the statutory] text requir[ing]
the Department to apply the Rule of Two to all

89a
contracting determinations and to award contracts
to veteran-owned small businesses.” Kingdomware
Technologies, Inc. v. United States, 579 U.S. ___ (2016)
(Slip. Op. at 8). The “Rule of Two” refers to the statutory
requirement under the VBA to set aside a contracting
action “if the contracting officer has a reasonable
expectation that two or more small business concerns
owned and controlled by veterans will submit offers
and that the award can be made at a fair and reasonable price that offers best value to the United States.”
38 U.S.C. § 8127(d); Kingdomware, Slip Op. at 2-3. For
purposes of the VBA, a “contract” award includes the
issuance of an order by the VA under existing contracts or ordering agreements. See Kingdomware, Slip
Op. at 11-12.
6. Plaintiff seeks review of the Department’s continued ordering of certain vision-related products from
Winston-Salem Industries for the Blind, Inc. (“IFB”)
for certain Veterans Integrated Service Networks
(“VISN”) (including, as of the date of this filing, VISN
2, VISN 7, and certain locations in VISN 8), despite
the fact that the Department has not satisfied 38
U.S.C. § 8127(d) by conducting the necessary Rule of
Two analysis prior to ordering from IFB. Plaintiff
also seeks review of a recent VA Policy Memorandum
that authorizes orders from the IFB and AbilityOne
without first conducting a Rule of Two analysis, as
required under the VBA and Kingdomware. Finally,
Plaintiff seeks review of the Committee’s impending
restriction requiring the VA to purchase vision-related
products from IFB as a mandatory source for VISN 6,
as set forth in a final rule issued on August 5, 2016.
See 81 Fed. Reg. 51863 (effective September 4, 2016).
7. The VA and the Committee’s actions with respect
to the foregoing issues are arbitrary and capricious,

90a
without a rational basis, and contrary to applicable
law. The Government’s unreasonable actions directly
harm Plaintiff, a prospective veteran-owned bidder
that would submit a quotation if given the opportunity
to compete for the procurements in any of the foregoing VISNs.
8. Plaintiff seeks a preliminary injunction and ultimately seeks permanent injunctive relief ordering the
VA not to conduct any “contracting determination”
(including award of a contract or issuance of an order)
without first conducting a Rule of Two analysis, including a prohibition on awarding any contracts to or
issuing orders to IFB before such analysis is completed. Plaintiff also seeks a declaratory judgment
that VA procurements must be conducted in accordance
with the plain language of the VBA, and that the VBA
holds priority over purported “mandatory” purchasing
requirements under the Javits-Wagner-O’Day Act, 41
U.S.C. §§ 8501-8506, via the AbilityOne Procurement
List (“the Procurement List”).
9. In addition, Plaintiff seeks a preliminary injunction and ultimately seeks permanent injunctive relief
ordering the Committee to cease adding any new products or services relating to the VA without first ensuring
that the VBA, guidelines issued by the VA in April
2010, and direction from the U.S. Court of Federal
Claims in Angelica Textile Services, Inc. v. United
States, 95 Fed. Cl. 208 (2010) (requiring that the VBA
and related VA procedures be given priority over the
Javits-Wagner-O’Day Act) are satisfied with respect to
VA procurements. Plaintiff also seeks a declaratory
judgment that the Committee’s addition of visionrelated products to the Procurement List in any VISN
without conducting the necessary market research is

91a
in contravention of the VBA and Department guidelines related thereto.
JURISDICTION AND STANDING
10. This court has jurisdiction of this matter pursuant to 28 U.S.C. § 1491(b)(1).
11. Plaintiff is an interested party under the statute
because Plaintiff is an actual or prospective bidder
or offeror whose direct economic interest would be
affected by the award of a contract or order for visionrelated products by the VA, or by failure to award the
contract or order to a qualified veteran-owned business. This complaint is in connection with a procurement
or proposed procurement because it involves a connection with any stage of the federal contracting acquisition
process, including the process for determining a need
for property or services, and the associated requirement to conduct the necessary market research required under the VBA.
12. Plaintiff has suffered a non-trivial competitive
injury because the restriction of veteran opportunities
in VISN 2, VISN 7, and certain locations in VISN 8 (as
well as the impending restriction in VISN 6) has
deprived and will deprive Plaintiff of the chance to
submit a bid or offer for these VISN opportunities.
FACTUAL BACKGROUND
13. Since approximately 1998, PDS has provided
the VA with vision-related products and services. PDS
is a service-disabled, veteran-owned, small business,
listed as verified in the VIP database to receive awards
under the Veterans First Contracting Program. Currently, PDS has contracts with the VA in the following
VISN regions: 1, 3, 5, 9, 10, 15, 16, 19, and 23.

92a
14. Given the opportunity, PDS intends to submit a
bid or offer to provide vision-related products and
services in each VISN for which the VA has need. PDS
has the capability to offer these products and services
at reasonable prices to the government.
15. Moreover, PDS would have bid on procurements
for vision-related products and services in VISN 2,
6, 7, and certain locations in VISN 8, if given the
opportunity. PDS would have offered these products at
reasonable prices to the government, as exemplified by
its current contracts for such products in other VISNs.
16. Currently, there are approximately 31 vendors
listed in the VIP database as potentially eligible to
submit bids or offers to satisfy the VA’s needs under
the North American Industry Classification System
(“NAICS”) 339115 (Ophthalmic Goods Manufacturing).
A. The Javits-Wagner-O’Day Act and the AbilityOne
Program
17. The Wagner-O’Day Act, passed in 1938, established the Committee on Purchases of Blind-Made
Products to provide employment opportunities for the
blind by authorizing them to manufacture products to
sell to the federal government. In 1971, the act was
amended to include people with severe disabilities,
and expanded to provide services to the federal government. See 41 U.S.C. §§ 8501-8506 (“Javits-WagnerO’Day Act” or “JWOD”).
18. JWOD requires government purchasers to give
priority to purchasing products and services from
participating, community-based nonprofit agencies
dedicated to training and employing individuals with
disabilities. 41 U.S.C. § 8504(a). JWOD lists at least
one exception, requiring that purchases of supplies

93a
from the Federal Prison Industries take priority over
JWOD purchases. 41 U.S.C. § 8504(b).
19. In 2007, the JWOD program was branded
“AbilityOne.” The Program is administered by the
U.S. AbilityOne Commission (also referred to as the
Committee for the Purchase From People Who Are
Blind or Severely Disabled) (“the Committee” or
“AbilityOne”). The Committee is an independent federal
commission made up of fifteen Presidential appointees, eleven of whom represent various government
agencies, including the VA. 41 U.S.C. § 8502(b).
20. JWOD provides that the Committee “may prescribe regulations regarding specifications for products
and services on the procurement list, the time of their
delivery, and other matters as necessary to carry out
this chapter.” 41 U.S.C. § 8503(d). In addition, the
Committee “shall prescribe regulations providing
that when the federal government purchases products
produced and offered for sale by qualified nonprofit
agencies for the blind or qualified nonprofit agencies
for other severely disabled, priority shall be given to
products produced and offered for sale by qualified
nonprofit agencies for the blind.” Id. The Committee
publishes regulations that prescribe the processes that
it should follow in adding items to the Committee’s
Procurement List. See 41 C.F.R. Chapter 51.
B. The Veterans Benefits Act of 2006 and Priority
for Veteran-Owned Businesses
21. In December 2006, Congress passed the Veterans
Benefit Act, providing that the VA must give procurement priority to qualified veteran-owned small
businesses. 38 U.S.C. §§ 8127-8128. The VBA requires
the VA to establish goals for the use of veteran-owned
small businesses. 38 U.S.C. § 8127(a). Moreover,

94a
subject to only two exceptions that allow for noncompetitive procedures for contract actions valued at
no more than $5 million (38 U.S.C. § 8127(b) and (c)),
contracting officers must award contracts to veteranowned small businesses if the Rule of Two is satisfied.
38 U.S.C. § 8127(d). The “Rule of Two” mandates that
if the contracting officer has a reasonable expectation
that two or more veteran-owned small businesses will
submit offers and that award can be made at a fair
and reasonable price that offers the best value to the
government, then the VA must restrict that procurement to veteran-owned small businesses. 38 U.S.C.
§ 8127(d). The VBA provides that the priority for
veteran-owned small businesses applies when procuring goods pursuant to Title 38 “or any other provision
of law.” 38 U.S.C. § 8128(a).
22. Implementing the VBA, the VA Acquisition
Regulations (“VAAR”) (found at 48 C.F.R. Chapter 8)
require that the contracting officer, in determining
an acquisition strategy, must consider contracting
preferences for service-disabled veteran-owned small
businesses (“SDVOSBs”) and veteran-owned small
businesses (“VOSBs”), first and second, respectively.
VAAR 819.7004. Further, echoing the provisions of 38
U.S.C. § 8128(a), the VAAR notes that “[v]arious
sections of title 38 U.S.C. authorize the Secretary to
enter into certain contracts and certain types of contracts without regard to any other provisions of law.”
VAAR 806.302-5(b).
23. Additionally, on April 28, 2010, the VA Office
of Acquisition and Logistics issued an Information
Letter, “New Guidelines for Placing Items and Services
on the AbilityOne Procurement List.” IL 001AL-10-06
(the “Information Letter”), further implementing the
VBA and discussing the interplay between the VBA

95a
and JWOD. According to the Information Letter,
SDVOSBs and VOSBs are given first and second
priority in satisfying the VA’s acquisition requirements. For all procurements conducted after April 28,
2010, the Information Letter indicates that the procurements are subject to the Veterans First Contracting
Program’s requirements under the VBA before being
considered for the AbilityOne Program. But the VA
also indicated that items that were already on the
Procurement List (which includes VISN 2 and VISN 7,
discussed below) prior to the passage of the VBA would
continue to have priority. The Information Letter provides a seven-step procedure that must be followed for
an item to be excluded from the VBA’s Veterans First
Contracting Program and added to the Procurement
List, which includes conducting market research
and obtaining written approval from the VA’s Chief
Acquisition Officer. The Information Letter advises
that the VA should not engage in discussions with
AbilityOne or its nonprofit agencies before receiving
such written approval.1
24. In October 2010, the U.S. Court of Federal
Claims confirmed in Angelica Textile Services, Inc. v.
United States, 95 Fed. Cl. 208 (2010), that the VBA
takes priority over JWOD. “The Veterans Benefits Act
is a specific mandate to the Department . . . to grant
first priority to SDVOSBs and VOSBs in the awarding
of contracts. On the other hand, the Javits-WagnerO’Day Act is a more general procurement statute.
Were there a conflict between the two statutes, the
more specific Veterans Benefits Act would control.” Id.
at 222. Specifically, the Court held that services newly
1

Each VISN is a discrete requirement for the VA that must be
separately assessed for purposes of market research and VBA
compliance.

96a
added to the Procurement List in that particular case
needed to follow the procedures set forth in the Information Letter, and failure to follow the Information
Letter invalidated the additions.
C. Kingdomware and the VA’s July 25, 2016 Policy
Memorandum
25. On June 16, 2016, the U.S. Supreme Court
emphasized the principles discussed above, ruling that
the VBA’s set-aside requirement “is mandatory, not
discretionary . . . [with the statutory] text requir[ing]
the Department to apply the Rule of Two to all
contracting determinations and to award contracts to
veteran-owned small businesses.” Kingdomware, Slip.
Op. at 8. Central to its holding, the Court expressly
ruled that, for purposes of the VBA, a “contract” award
includes the issuance of an order under an existing
contract or other ordering agreement. See Kingdomware,
Slip Op. at 11-12.
26. On July 25, 2016, the VA issued “VA Procurement Policy Memorandum (2016-05) – Implementation
of the Veterans First Contracting Program as a Result
of the U.S. Supreme Court Decision” (“the Policy
Memorandum”). Attached to the Policy Memorandum
were a Class Deviation, outlining numerous changes
to the VAAR in order to implement the Kingdomware
decision, and a Decision Tree, providing a visual flow
chart of steps the VA must take upon receiving an
actionable procurement opportunity for supplies or
services.
27. The Policy Memorandum does not direct VA
contracting officers to give priority to veteran-owned
businesses over AbilityOne products and services.
Specifically, the Policy Memorandum states, “When a
contracting officer is required by law to obtain goods

97a
and services from a specific source, the contracting
officer shall carry out that mandate. These include
supplies and services listed on the Procurement List
issued by the Committee for Purchase from People
Who Are Blind or Severely Disabled.” Policy Memorandum, at 11. The Decision Tree expressly states that
the first question that should be considered by a contracting officer is whether “Mandatory Sources” (such
as AbilityOne) are available, and if they are, then “38
U.S.C. 8127 does not apply” and the VA should “proceed” with purchasing from the “mandatory source”
(without first conducting a VBA Rule of Two analysis).
This is contrary to the main holding in Kingdomware
and the plain language of the VBA.
D. Issuance of Orders to an AbilityOne Nonprofit
Under VISN 2 and VISN 7
28. Prior to the passage of the VBA in 2006, the
Committee added certain visonrelated products to
the Procurement List for VISN 2 and VISN 7. This
resulted in the VA entering into framework agreements, firm fixed price contracts with economic price
adjustments, Blanket Purchase Agreements, and/or
Basic Ordering Agreements with IFB to meet the VA’s
needs for vision-related products in these regions.
But even after passage of the VBA in 2006, the VA
continued to form contracts with and issue orders to
IFB without conducting a Rule of Two analysis.
29. Upon information and belief, IFB and the VA
are currently negotiating extended framework agreements for VISN 2 and VISN 7, with IFB and the VA
entering into a series of 90-day “extensions,” and the
VA continues to issue orders to IFB for vision-related
products. In so doing, the VA is not applying the Rule
of Two as required under the VBA for the VISN 2 and
VISN 7 orders.

98a
E. Addition of Certain Locations in VISN 8 to the
Procurement List
30. On April 4, 2014, the Committee unilaterally
issued a Notice in the Federal Register adding eyeglasses, lenses, and related vision products to the
AbilityOne Procurement List. 79 Fed. Reg. 18892. The
Notice made IFB the mandatory source of supply and
for such products to be a mandatory purchase for
the Bay Pines Healthcare System in Bay Pines, FL
and the James A. Haley Veterans Hospital in Tampa,
FL. Id. And on August 14, 2015, the Committee issued
another Notice in the Federal Register adding additional vision-related products to the AbilityOne Procurement List. 80 Fed. Reg. 48830. The Notice made
IFB the mandatory source of supply and for such
products to be a mandatory purchase for the VA
Medical Center in Orlando, FL, the Viera, FL outpatient
clinic, and the William V. Chappell, Jr. outpatient
clinic in Daytona, FL. Id. These facilities are all
located in VISN 8.
31. The VA is not applying the VBA-required Rule
of Two for orders issued by these specific facilities
located in VISN 8. Upon information and belief,
neither the VA nor the Committee followed the VBA
or the Information Letter implementing the VBA, as
required by Angelica Textile, in adding these visionrelated products to the Procurement List for VISN 8.2
2

On August 11, 2016, the VA issued pre-solicitation notice
VA248-16-R-0815, informing potential offerors of a pending
opportunity for vision-related products and services in the other
VISN 8 locations not covered by the foregoing AbilityOne notices.
The procurement will be “100% Set-Aside for Service-Disabled
Veteran-Owned Small Business . . . firms.” Plainly, if SDVOSBs
are able to satisfy the VA’s requirements under this new opportunity, then SDVOSBs would also be able to satisfy the other

99a
F. Addition of VISN 6 to the Procurement List
32. On August 5, 2016, the Committee issued a
notice in the Federal Register adding vision-related
products to the AbilityOne Procurement List for VISN
6. See 81 Fed. Reg. 51863. The Notice makes IFB the
mandatory source of supply and for such products to
be a mandatory purchase for the VA VISN 6 medical
centers, community based outpatient clinics, and health
care centers that provide vision-related services as of
September 4, 2016.
33. The addition of these vision-related products
was done under the Committee’s purported authority
to add products to the Procurement List. See 41 C.F.R.
§ 51-2.3.
34. The addition of VISN 6 to the Procurement List
disregarded this Court’s decision in Angelica Textile,
which held that the VBA takes priority over JWOD,
and also ignored the Information Letter, which set forth
the procedures for adding products to the Procurement
List under the VBA.
35. Upon information and belief, the VA has not
researched whether the Rule of Two can be satisfied
for these facilities located in VISN 6 per the VBA,
nor has the VA or the Committee satisfied the other
requirements set forth in the Information Letter,
which should be satisfied prior to the addition of
products to the Procurement List. Moreover, the VA’s
present ordering actions in VISN 2, 7, and 8, as well
as the VA’s recent Policy Memorandum, indicate that
the VA will not apply the Rule of Two as required
under the VBA for contracts and orders for visionrelated products in VISN 6.
VISN 8 opportunities that AbilityOne has unilaterally claimed
since 2014 and 2015.

100a
COUNT I
REQUEST FOR DECLARATORY JUDGMENT
THAT THE VA’S FAILURE TO IMPLEMENT THE
VETERANS BENEFITS ACT AND APPLY THE
RULE OF TWO IN EVERY PROCUREMENT, AS
AFFIRMED BY THE SUPREME COURT IN
KINGDOMWARE, IS ARBITRARY AND
CAPRICIOUS, WITHOUT A RATIONAL BASIS,
AND OTHERWISE CONTRARY TO LAW
36. Plaintiff repeats and incorporates by reference
paragraphs 1-35 above as if fully set forth herein.
37. The VA’s failure to implement the VBA and the
mandatory application of the Rule of Two in all VA
contracting determinations, as clearly spelled-out by
the Supreme Court in Kingdomware, is arbitrary, capricious, without a rational basis, and otherwise contrary
to law. As the VA’s recent Policy Memorandum, Class
Deviation, and Decision Tree make clear, the VA
continues to prioritize items on the Procurement List
before applying the Rule of Two and before considering
whether VA contracting actions (including the issuance of orders) should be set aside for veteran-owned
small businesses. This violates the VBA’s requirement
that the VA must set-aside contracts for veteran-owned
small businesses if the Rule of Two is satisfied. 38
U.S.C. § 8127(d). As the Supreme Court stated in
Kingdomware, the requirements of § 8127(d) are “mandatory, not discretionary” in VA procurements. Slip
Op. at 8. As a result, the VA’s position that it should
purchase items on the Procurement List without first
completing a Rule of Two analysis is irrational and
contrary to law.
38. Moreover, the VA’s new Policy Memorandum
setting forth the process by which the VA will comply

101a
with the new Kingdomware decision, was not issued
consistent with existing requirements of law. Specifically,
the VA did not provide advance notice to the public,
and the public did not have an opportunity to comment, on these new rules.
39. Since December 2006, the VA has continued to
violate the VBA by awarding contracts and issuing
orders for vision-related products in VISN 2, VISN 7,
and certain locations in VISN 8 for items on the Procurement List without first conducting the necessary
market research. This is contrary to the Kingdomware
decision and the plain language of the VBA, and is
thus irrational and contrary to law.
40. The addition of VISN 6 to the Procurement List
is in violation of the VBA for multiple reasons. First,
listing these vision-related products attempts to elevate the JWOD obligations over the VBA preferences,
which is inconsistent with the plain language of
§ 8128(a). Second, the VA and the Committee appear
to have already violated the VBA by making a
“contracting determination” (Kingdomware, Slip. Op. at
8) without having first conducted a Rule of Two
analysis on the VISN 6 opportunities. This violates
both Kingdomware and the plain language of the
VBA. Third, listing items on the Procurement List will
ostensibly require the VA to issue orders for these
vision-related products, despite having not first conducted a Rule of Two analysis, which is contrary to
Kingdomware and the plain language of the VBA.
Finally, the addition of these new VISN 6 products did
not comply with the procedures set out in the VA’s
April 2010 Information Letter. For all of the foregoing
reasons, the addition of VISN 6 to the Procurement
List is arbitrary, capricious, without a rational basis,
and otherwise contrary to law.

102a
COUNT II
REQUEST FOR A PRELIMINARY AND
PERMANENT INJUNCTION TO STOP
THE VA FROM VIOLATING THE VETERANS
BENEFITS ACT BY ISSUING ORDERS
AND AWARDING CONTRACTS TO
ABILITYONE SOURCES WITHOUT FIRST
CONDUCTING RULE OF TWO ANALYSES
41. Plaintiff repeats and incorporates by reference
paragraphs 1-35 above as if fully set forth herein.
42. By failing to follow the VBA, the VA has improperly denied Plaintiff and other veteran-owned small
businesses the opportunity to compete for visonrelated products and services.
43. Moreover, but for the “mandatory” requirement
to issue orders to IFB for VISN 2, VISN 7 and certain
locations in VISN 8, Plaintiff and at least two other
veteran-owned small businesses would have submitted bids or offers for vision-related products in VISN
2, VISN 7 and certain locations in VISN 8. Plaintiff
would have offered such products at a fair and reasonable price that offered the best value to the government,
as demonstrated by the fact that Plaintiff supplies
such products to the VA in nine other VISNs.
44. Similarly, but for the “mandatory” requirement
to issue orders to IFB for VISN 6 effective September
4, 2016, given the opportunity, Plaintiff and at least
one other veteran-owned small business would submit
bids or offers for vision-related products in VISN 6.
45. The Court should enjoin the VA from violating
the VBA by issuing orders and awarding contracts
to AbilityOne sources without first conducting the
market research required under the VBA and affirmed

103a
by Kingdomware. Given the plain language of the
Kingdomware decision and the VBA, Plaintiff will
succeed on the merits of this matter. Plaintiff will
suffer specific irreparable injury if the VA is not enjoined
from continuing to ignore its statutory obligations and
to allow IFB to continue to receive priority in violation
of the VBA. Next, the balance of hardships in the
instant case favors entry of an injunction. The VA will
not be harmed by being required to follow the law. The
slight potential harm that may result from a delay in
procurement is insufficient, particularly when such
delay would result from a mandate that the VA abide
by a law designed to protect veterans. Finally, the
public interest will be served by granting the injunction because the public’s interest lies in ensuring the
statutory requirements of the VBA are followed and
that veteran-owned small businesses are given the
priority that Congress originally intended. The VA’s
violations have the adverse effect of undermining the
integrity of the federal procurement process.
COUNT III
REQUEST FOR DECLARATORY JUDGMENT
THAT THE COMMITTEE’S ADDITION OF VISIONRELATED PRODUCTS TO THE PROCUREMENT
LIST IS IN CONTRAVENTION OF THE
VETERANS BENEFITS ACT AND DEPARTMENT
GUIDELINES, AND IS ARBITRARY AND
CAPRICIOUS, WITHOUT A RATIONAL BASIS,
AND OTHERWISE CONTRARY TO LAW
46. Plaintiff repeats and incorporates by reference
paragraphs 1-35 above as if fully set forth herein.
47. As this Court held in October 2010 in Angelica
Textile, the VBA takes priority over JWOD. See Angelica
Textile, 95 Fed. Cl. at 222. Furthermore, the Infor-

104a
mation Letter issued by the VA in April 2010 set forth
the procedures that should be followed before adding
new VA products or services to the Procurement List
in accordance with the VBA. With regard to opportunities in VISN 6 and certain locations in VISN 8 (both of
which were added to the Procurement List after the
passage of the VBA), the Committee did not allow
VOSBs to have the priority that Congress originally
intended under the VBA and did not follow the
Information Letter, which affirms such priority.
48. While the Committee enjoys broad authority to
add certain products or services to the Procurement
List under 41 C.F.R. Chapter 51, that authority is not
unlimited, particularly with regard to VA procurements. Before adding VA-related products to the Procurement List in VISN 6 and certain locations in VISN
8, the Committee should have been required to follow
the VBA and the Information Letter issued by the VA.
The Committee’s failure to do so is arbitrary and
capricious, without a rational basis, and otherwise
contrary to law.
COUNT IV
REQUEST FOR A PRELIMINARY AND
PERMANENT INJUNCTION TO STOP THE
COMMITTEE FROM ADDING VISION-RELATED
PRODUCTS TO THE ABILITYONE
PROCUREMENT LIST IN CONTRAVENTION OF
THE VETERANS BENEFITS ACT AND
DEPARTMENT GUIDELINES
49. Plaintiff repeats and incorporates by reference
paragraphs 1-35 above as if fully set forth herein.
50. By failing to follow the VBA and the Information
Letter, the Committee has improperly denied Plaintiff

105a
and other VOSBs the opportunity to compete for visonrelated products.
51. Similarly, but for the so-called mandatory
requirement to issue orders to IFB for VISN 6 effective
September 4, 2016, given the opportunity, Plaintiff
and at least one other veteran-owned small business
would submit bids or offers for vision-related products
in VISN 6. The addition of vision-related products to
the Procurement List under VISN 6 will deprive PDS
the opportunity to compete for those orders.
52. The Court should enjoin the Committee from
violating the VBA and the Information Letter by adding vision-related products to VISN 6, or any other
VISN, and making IFB the mandatory source of such
products. Given the plain language of the Kingdomware
decision, the VBA, and the Angelica Textile decision,
Plaintiff will succeed on the merits of this matter.
Plaintiff will suffer specific irreparable injury if the
Committee is not enjoined from continuing to ignore
the VBA’s statutory obligations and attempting to
require that IFB receive priority. Additionally, the
balance of hardships in the instant case favor entry of
an injunction. The Committee will not be harmed by
being required to follow the law and the direction
already issued by this Court in October 2010 under the
Angelica Textile decision. Finally, the public interest
will be served by granting the injunction because the
public’s interest lies in ensuring the statutory requirements of the VBA are followed and that VOSBs are
given the priority that Congress originally intended.
The Committee’s violations have the adverse effect of
undermining the integrity of the federal procurement
process.

106a
REQUEST FOR RELIEF
WHEREFORE, Plaintiff, PDS Consultants, Inc.,
respectfully requests this Court grant judgment in its
favor, and grant the following relief:
a. Entry of judgment in favor of Plaintiff and against
the United States, declaring that the VA procurements must be conducted in accordance with the plain
language of the VBA and consistent with the U.S.
Supreme Court’s decision in Kingdomware, providing
priority for veteran-owned small businesses over purported “mandatory” purchasing requirements under
the Javits-Wagner-O’Day Act by applying the Rule of
Two to all VA contracting determinations;
b. Entry of a Preliminary Injunction ordering the
VA to conduct procurements for VISN 2, VISN 6, VISN
7, and certain locations in VISN 8, as well as all other
VISNs, in compliance with the VBA’s requirement to
conduct the necessary market research for all contracting determinations, regardless of whether the items
are on the Procurement List, and to cease issuing
orders for vision-related products to IFB, until such
time as the Court has the opportunity to hear argument and rule on Plaintiff’s request for permanent
injunctive relief;
c. Entry of a Permanent Injunction ordering the VA
to conduct procurements for VISN 2, VISN 6, VISN 7,
and certain locations in VISN 8, as well as all other
VISNs, in compliance with the VBA’s requirement to
apply the Rule of Two to all contracting determinations, regardless of whether the items are on the
Procurement List;
d. Entry of judgment in favor of Plaintiff and
against the United States, declaring that the AbilityOne
Committee must follow the VBA, the U.S. Supreme

107a
Court in Kingdomware, the direction from the U.S.
Court of Federal Claims in Angelica Textile, and the
VA’s April 2010 Information Letter before adding any
new VA products or services to the AbilityOne
Procurement List;
e. Entry of a Preliminary Injunction enjoining the
Committee from adding vision-related products from
the Procurement List in VISN 6 or any other VISNs,
in compliance with the VBA, the U.S. Supreme Court
in Kingdomware, the direction from the U.S. Court of
Federal Claims in Angelica Textile, and the VA’s April
2010 Information Letter, until such time as the Court
has the opportunity to hear argument and rule on
Plaintiff’s request for permanent injunctive relief;
f. Entry of a Permanent Injunction ordering the
Committee to remove vision-related products from the
Procurement List in VISN 6 and certain locations in
VISN 8, for failure to comply with the VBA, the U.S.
Supreme Court in Kingdomware, the direction from
the U.S. Court of Federal Claims in Angelica Textile,
and the VA’s April 2010 Information Letter;
g. Entry of an order granting Plaintiff its costs in
this action, including reasonable attorneys’ fees; and
h. Granting such further relief as the Court may
deem just and proper.
Dated: August 25, 2016

108a
Respectfully submitted,
SHEPPARD MULLIN RICHTER &
HAMPTON LLP
s/ David S. Gallacher
David S. Gallacher
Emily S. Theriault
2099 Pennsylvania Avenue NW, Suite 100
Washington, DC 20006-6801
Telephone (202) 747-1921
Direct Facsimile (202) 747-3807
Email: dgallacher@sheppardmullin.com
Counsel for Plaintiff PDS Consultants, Inc.

